<html>
<title> - USING INNOVATIVE TECHNOLOGY AND PRACTICES TO ENHANCE THE CULTURE OF PREPAREDNESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


  USING INNOVATIVE TECHNOLOGY AND PRACTICES TO ENHANCE THE CULTURE OF 
                              PREPAREDNESS

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                             RESPONSE, AND
                             COMMUNICATIONS

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2018

                               __________

                           Serial No. 115-74

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________



                    U.S. GOVERNMENT PUBLISHING OFFICE                    
34-350 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a6c1d6c9e6c5d3d5d2cec3cad688c5c9cb88">[email&#160;protected]</a> 




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
Debbie Lesko, Arizona
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 
                                 
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Martha McSally, Arizona              James R. Langevin, Rhode Island
Thomas A. Garrett, Jr., Virginia     Bonnie Watson Coleman, New Jersey
Debbie Lesko, Arizona                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
       Moira Bergin, Minority Subcommittee Staff Director/Counsel
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................    31
  Prepared Statement.............................................    32
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     3

                               Witnesses

Mr. Daniel Kaniewski, Deputy Administrator for Resilience, 
  Federal Emergency Management Agency, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
Mr. Daniel M. Cotter, Director, First Responders Group, Science 
  and Technology Directorate, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Dereck R. Orr, Division Chief, Public Safety Communications 
  Division, National Institute of Standards and Technology, U.S. 
  Department of Commerce:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. John V. Kelly, Senior Official Performing the Duties of the 
  Inspector General, Office of Inspector General, U.S. Department 
  of Homeland Security:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25

                                Appendix

Questions From Ranking Member Donald M. Payne, Jr. for Daniel 
  Kaniewski......................................................    45
Questions From Ranking Member Donald M. Payne, Jr. for Daniel M. 
  Cotter.........................................................    51
Questions From Ranking Member Donald M. Payne, Jr. for Dereck R. 
  Orr............................................................    52
Questions From Ranking Member Donald M. Payne, Jr. for John V. 
  Kelly..........................................................    53

 
  USING INNOVATIVE TECHNOLOGY AND PRACTICES TO ENHANCE THE CULTURE OF 
                              PREPAREDNESS

                              ----------                              


                        Wednesday, July 25, 2018

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:44 p.m., in 
Room HVC-210, Capitol Visitor Center, Hon. Daniel M. Donovan 
(Chairman of the subcommittee) presiding.
    Present: Representatives Donovan, Lesko, and Payne.
    Mr. Donovan. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony on the 
development and use of innovative technology and practices to 
enhance the culture of preparedness.
    Before I recognize myself for an opening statement, I would 
like to welcome the gentlelady from Arizona, Mrs. Lesko to the 
committee. Welcome, Mrs. Lesko.
    I now recognize myself for an opening statement. I want to 
welcome our witnesses here today to discuss an issue that is 
important to our homeland security, fostering a culture of 
preparedness.
    The events of 2017 emphasize the importance of being 
prepared for the range of threats that we face. In 6 months 
alone, there were 3 devastating hurricanes, some of the 
costliest wildfires that moved through California, and 2 
separate ISIS-inspired terror attacks carried out in my home 
town of New York City.
    As the 2018 hurricane season has begun, recovery from last 
hurricane season is on-going. For so many Americans, it will be 
a long road to pre-storm restoration. I speak from experience 
to this point.
    Nearly 6 years later, I still have constituents grappling 
with the lasting effects of Superstorm Sandy. All of these 
events underscore the need to foster a culture of preparedness 
where citizens and Government work together to mitigate the 
impact of future threats.
    We must work together at all levels of government and with 
the private sector and the public to identify new and 
innovative practices and technology that will enhance our 
prevention, preparedness, response, and recovery capabilities.
    We need to continually re-evaluate the policies and 
practices we use to respond and rebuild in the wake of a 
disaster. Investments in mitigation need to be made to create 
stronger, more resilient systems in a cost-effective manner.
    Local communities have to be empowered to manage their own 
basic needs and allow neighborhoods to come together to lend a 
helping hand. We need to ensure our first responders have the 
tools and cutting-edge technology that will enable them to get 
their vital jobs done, whether stopping terrorists or preparing 
for the next natural disaster.
    American ingenuity should be nurtured to find creative 
solutions to ready our communities for the next threat. That is 
why I am pleased to have our witnesses here today to discuss 
how they are thinking outside of the box as they work to 
address the threats that we face.
    I am particularly looking forward to hearing how FEMA is 
using lessons learned from the 2017 disasters to enhance our 
ability, working with our State and local partners to respond 
to hurricane season.
    I am also interested in learning more about how the Science 
and Technology Directorate is supporting FEMA in its efforts 
and working to enhance first responder technology. Finally, 
essential to any successful response effort, it is the ability 
of our first responders to communicate and I look forward to 
hearing about NIST's efforts to enhance first responder 
communications.
    [The statement of Chairman Donovan follows:]
                Statement of Chairman Daniel M. Donovan
                             July 25, 2018
    I want to welcome our witnesses here today to discuss an issue that 
is important to our homeland security: Fostering a culture of 
preparedness.
    The events of 2017 emphasize the importance of being prepared for 
the range of threats we face. In 6 months alone, there were three 
devastating hurricanes, some of the costliest wildfires to move through 
California, and two separate ISIS-inspired terror attacks carried out 
in my home town of New York City.
    As the 2018 hurricane season has begun, recovery from last 
hurricane season is on-going and for so many Americans it will be a 
long road to pre-storm restoration. I speak from experience on this 
point. Nearly 6 years later, I still have constituents grappling with 
the lasting effects of Superstorm Sandy.
    All of these events underscore the need to foster a culture of 
preparedness, where citizens and governments work together to mitigate 
the impact of future threats. We must work together at all levels of 
government and with the private sector and the public to identify new 
and innovative practices and technology that will enhance our 
prevention, preparedness, response, and recovery capabilities.
    We need to continually reevaluate the policies and practices we use 
to respond and rebuild in the wake of a disaster. Investments in 
mitigation need to be made to create stronger, more resilient systems 
in a cost-effective manner. Local communities have to be empowered to 
manage their own basic needs and allow neighborhoods to come together 
to lend a helping hand. And we need to ensure our first responders have 
the tools and cutting-edge technology that will enable them get their 
vital jobs done.
    Whether stopping terrorists or preparing for the next natural 
disaster, American ingenuity should be nurtured to find creative 
solutions to ready our communities for the next threat.
    That is why I am pleased to have our witnesses here today to 
discuss how they are thinking ``outside the box'' as they work to 
address the threats we face. I am particularly looking forward to 
hearing how FEMA is using lessons learned from the 2017 disasters to 
enhance our ability, working with our State and local partners, to 
respond this hurricane season.
    I am also interested in learning more about how the Science and 
Technology Directorate is supporting FEMA in its efforts and working to 
enhance first responder technology. Finally, central to any successful 
response effort is the ability of our first responders to communicate 
and I look forward to hearing about NIST's efforts to enhance first 
responder communications.
    With that, I welcome our witnesses here today. I look forward to 
our discussion.

    Mr. Donovan. With that, I welcome our witnesses here today 
and I look forward to our discussion. I am going to allow Mr. 
Payne, when he arrives, to give his opening statement. I would 
also like to remind Members that statements may be submitted 
for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 25, 2018
    Good morning. I would like to thank the Subcommittee Chairman and 
Ranking Member for holding today's hearing on innovative technology and 
practices for increasing preparedness.
    Throughout my 25 years in Congress, I have seen natural disasters 
devastate both my District and other communities across America. 
Unfortunately, the 2017 hurricane season was no exception. In fact, it 
was one of the most devastating hurricane seasons in history, with 
Harvey, Irma, and Maria striking our shores.
    I am concerned about the Nation's preparedness for natural 
disasters. Clearly, nearly 13 years after Hurricane Katrina, we are 
still struggling with gaps in preparedness. The 2017 hurricane season, 
and Hurricane Maria in particular, exposed many of these gaps.
    For example, FEMA's recently-released 2017 Hurricane Season After-
Action Report recognizes that one of the many errors in the Federal 
response to Maria was that FEMA did not have enough disaster supplies 
in Puerto Rico.
    That is a basic element of disaster preparedness that FEMA has to 
get right.
    I hope the Trump administration will take seriously the after-
action report, along with upcoming work from the DHS Inspector General 
and the Government Accountability Office, to improve their abysmal 
preparedness and response for Hurricane Maria.
    While I look forward to a productive conversation on technology 
today, we must also continue to press FEMA on how it handles the 
fundamentals of disaster preparedness.
    In its efforts to move forward in preparedness technology 
innovation, I hope FEMA, S&T, and NIST will prioritize technology that 
will aid first responder efforts to keep communities safe and provide 
for efficient asset management during natural disaster response.
    Finally, I would note that preparedness has become even more 
important in the face of climate change, which is affecting weather 
across the globe and right here at home.
    Unfortunately, the Trump administration has failed to recognize 
climate change, even dropping the concept from FEMA's Strategic Plan. 
Given how destructive the 2017 hurricane season was, along with the 
wildfires that year, FEMA must get serious about the science behind 
these events.
    How can we expect communities to prepare for extreme weather when 
the Federal Government will not acknowledge that destructive weather 
patterns are occurring at a rate not seen before? I urge our witnesses 
from FEMA, NIST, and S&T to thread climate change into preparedness 
technologies and innovation.
    I thank all the witnesses for attending today's hearing. I look 
forward to your testimony.
    I yield back the balance of my time.

    Mr. Donovan. But in the mean time, I now would like to 
introduce our panel of witnesses.
    I thank you, all, for being here to discuss this very 
important topic.
    Dr. Daniel Kaniewski, he currently serves as the deputy 
administrator for resilience at the Federal Emergency 
Management Agency. Thank you for coming today, sir.
    Mr. Dan Cotter is the director of the Science and 
Technology Directorate's first responders group at the 
Department of Homeland Security. Welcome, sir.
    Mr. Dereck Orr is the chief of the National Institute of 
Standards and Technology's public safety communications 
division. Welcome.
    Mr. John Kelly is the senior official performing the duties 
of the inspector general at the Department of Homeland 
Security. I welcome you, sir.
    The witnesses' full written statements will appear in the 
record. The Chair now recognizes Administrative Kaniewkski for 
5 minutes for his opening statement.

    STATEMENT OF DANIEL KANIEWSKI, DEPUTY ADMINISTRATOR FOR 
     RESILIENCE, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Kaniewski. Good afternoon, Chairman Donovan, Ranking 
Member Payne, distinguished Members of the committee. My name 
is Dan Kaniewski and I am here to testify about how FEMA is 
using innovative technology and practices to enhance the 
culture of preparedness.
    Now, as many of you know, 2017 was a busy hurricane and 
wildfire season. I was awaiting Congressional confirmation as I 
watched Hurricane's Harvey, Irma, and other disasters around 
this country happen in front of my eyes.
    Now, I was on the sidelines. I was watching this on TV. I 
was afraid I would miss hurricane season. Now, as it turns out 
my fears were unfounded. I became FEMA's acting deputy 
administrator the day Maria made landfall.
    Consider the following about last year's historic disaster 
season. Hurricanes Harvey, Irma, and Maria caused a combined 
$265 billion in damage. Each of these hurricanes was among the 
top 5 costliest hurricanes on record.
    In response, FEMA coordinated large deployments of Federal 
personnel, both before and after the storms' landfall to 
support response and initial recovery across 270,000 square 
miles. FEMA facilitated logistics missions that involve more 
than $2 billion worth of commodities, moving across several 
States and territories using multiple modes of transportation.
    In total, hurricanes and the California wildfires affected 
more than 47 million people, which is 15 percent of the U.S. 
population. FEMA registered nearly 4.8 million households for 
assistance. That is more survivors registered than Hurricanes 
Katrina, Rita, Wilma, and Sandy combined.
    Now, we recently released our findings from our 
comprehensive review of our response to last year's hurricanes, 
it is the 2017 Hurricane Season FEMA After-Action Report or 
AAR, which is available on FEMA.gov. As a standard procedure 
post-disaster, the AAR is not meant to place or skirt blame, it 
is intended to identify what went right, and what can be 
improved before the next disaster strikes. AAR's are part of 
our DNA in emergency management.
    Thousands of emergency managers see the value in learning 
from ourselves and each other. Our lessons learned are driving 
targeted improvements across the agency, and directly informed 
our 5-year strategic plan. Today, given the focus of the 
hearing as a culture of preparedness, I will highlight goal one 
in that strategic plan which is fostering a culture of 
preparedness.
    First, we need to acknowledge that during a disaster, 
individuals in the impacted communities are the first 
responders. There will never be enough first responders, 
emergency managers, or service providers to meet the needs of 
the entire community impacted by the disaster event. The 
innovation that we need to make is to change the culture of our 
Nation to one of preparedness. We need to empower individuals 
with the skills and information they need to help speed the 
response and recovery efforts.
    Toolkits to help build individual preparedness are 
available at ready.gov. As discussed more in detail in my 
written testimony, FEMA is involved in a number of innovative 
technologies to enhance our ability to help people before, 
during, and after disasters. Crowdsourcing is not new, but FEMA 
leveraged this capability from volunteer networks to enhance 
situational awareness during the 2017 disasters.
    Immersed is a virtual reality tool created by FEMA that 
allows users to assess the benefits of mitigating against flood 
hazards. The Flood Apex Program is a program of DHS Science and 
Technology Directorate and supports FEMA and communities to 
better understand the breadth and severity of flood events.
    Of course, not all innovations are technological in nature. 
At FEMA we are continually examining ways in which we do 
business and find more effective and efficient ways to 
accomplish the goals of our strategic plan. To ensure our 
agency is best aligned with our strategic priorities, for 
example we recently announced the formation of a new 
organization called FEMA Resilience. Which is an organization I 
am proud to lead.
    We are also finding better and smarter ways of doing 
business in the field that have a more direct impact on 
survivors. For example, we are streamlining our inspections 
process to damaged homes, so that fewer people need to knock on 
a survivor's door to validate damages sustained in disaster. As 
we utilize authorities granted by Congress, FEMA continues to 
engage reinsurance markets as one tool to help strengthen the 
financial framework of the National Flood Insurance Program.
    FEMA secured $1.4 billion in reinsurance coverage from 28 
reinsurers to cover qualifying NFI fee flood losses in fiscal 
year 2018. To complement that coverage, FEMA is exploring 
additional reinsurance placement through a transaction that 
would for the first time engage the capital markets. Finally, 
as tomorrow is the 28th anniversary of the Americans With 
Disabilities Act. I would like to highlight a few things that 
we are doing at FEMA to align with access and functional needs.
    We are empowering all of FEMA employees through the 
development of training so that every single FEMA employee is 
able to integrate serving people with disabilities into the 
work we do every day. We are also encouraging our State and 
local partners to improve accessibility in their communities 
for people with disabilities by utilizing mitigation funds to 
build back stronger utilizing universal design buildings, so 
everybody can access and utilize community facilities. That 
improves communities' resilience. Now, there are many efforts 
going under way right now at FEMA, and we continue to move 
forward with those with our dedicated work force, our partners, 
our stakeholders to innovate and improve the way we help people 
before, during, and after disasters.
    Congress and this committee are key partners in all of 
this, and we appreciate your support, and ask for your 
continued partnership. Thank you again for the opportunity to 
testify. I look forward to your questions.
    [The prepared statement of Mr. Kaniewski follows:]
                     Statement of Daniel Kaniewski
                             July 25, 2018
                              introduction
    Good morning Chairman Donovan, Ranking Member Payne, and Members of 
the subcommittee. My name is Daniel Kaniewski and I am the acting 
deputy administrator at the Federal Emergency Management Agency (FEMA). 
On behalf of U.S. Department of Homeland Security (DHS) Secretary 
Nielsen and FEMA Administrator Long, thank you for the opportunity to 
discuss lessons learned from the 2017 hurricane season, FEMA's new 
Strategic Plan, and how both of those are driving innovation at FEMA 
and emergency management at all levels.
                         2017 hurricane season
    The 2017 hurricane season was busy for many of us in the emergency 
management field. I was awaiting Congressional confirmation as I 
watched Hurricanes Harvey and Irma come ashore and was anxious to join 
FEMA, worried that I would not be able to contribute to FEMA's efforts 
during the hurricane season. It turns out the worry was misplaced as I 
became the FEMA acting deputy administrator the day Maria came ashore 
in Puerto Rico.
    Administrator Long has testified before this committee and others 
about the extreme nature of last year's disaster season, so I'd like to 
take this opportunity to focus on some of the key themes and lessons 
learned from these experiences.
                      key themes & lessons learned
    Hurricanes Harvey, Irma, and Maria caused a combined $265 billion 
in damage and were each, individually, among the top five costliest 
hurricanes on record. In response, FEMA coordinated large deployments 
of Federal personnel, both before and after the hurricanes' landfalls, 
to support response and initial recovery efforts across 270,000 square 
miles. These deployments included more than 17,000 FEMA and Federal 
Surge Capacity Force personnel, and nearly 17,000 personnel from the 
Department of Defense. FEMA facilitated logistics missions that moved 
more than $2 billion worth of commodities across several States and 
territories, using multiple modes of transportation. FEMA Urban Search 
and Rescue Task Forces, comprised of State and local emergency 
responders, saved or assisted nearly 9,500 lives across the 3 
hurricanes. In total, the hurricanes and California wildfires affected 
more than 47 million people--nearly 15 percent of the Nation's 
population. FEMA registered nearly 4.8 million households for 
assistance.
    The unprecedented scale, scope, and impacts of the complex 
combination of disasters, tested the improved capabilities that were 
developed and as a result of lessons learned from Hurricanes Katrina 
and Sandy.
    Following the 2017 hurricanes, FEMA thoroughly reviewed 
preparations for the immediate response to, and initial recovery 
operations. Some themes that emerged as we identified lessons learned 
to help the agency, the emergency management community, and the Nation 
in preparation for future events include:
  <bullet> Sustained Whole Community Logistics Operations.--The scale 
        and duration of life-saving and sustainment operations showed 
        that FEMA must be ready to support logistics missions that span 
        weeks or months, particularly in remote locations where 
        commodities and equipment are transported by non-traditional 
        methods. Plans and procedures for resource movement and 
        transportation logistics, including the last mile of delivery, 
        must be effectively coordinated with other government agencies, 
        non-profit organizations, and the private-sector supply chain.
  <bullet> Federally Supported, State-Managed, Locally-Executed.--
        FEMA's ability to provide support in disasters builds on, and 
        is subject to, the capacity of State, local, Tribal, and 
        territorial (SLTT) governments. If these governments are well-
        resourced, well-trained, and well-organized, the effectiveness 
        of FEMA's assistance is enhanced. If the SLTT government's 
        ability to respond--for example, the ability to provide law 
        enforcement, medical support, or commodity distribution--is 
        diminished, then FEMA and its partners must find ways to 
        deliver and support these critical services. FEMA is not 
        traditionally a first responder but had to play a more direct 
        response role following Hurricane Maria.
  <bullet> Staffing for Concurrent, Complex Incidents.--When Hurricane 
        Harvey made landfall in Texas, FEMA had staff deployed to 32 
        Presidentially-declared disasters across 19 field offices. By 
        the time Maria made landfall, following Harvey and Irma, 
        decisions regarding personnel made in support of one incident 
        had impacts to on-going disaster operations. FEMA and our 
        Federal Government partners rapidly surged and deployed 
        personnel to support immediate response operations. FEMA also 
        relied on mission assignments and the Surge Capacity Force to 
        supplement our existing disaster workforce, pulling resources 
        and personnel from across Federal Government departments and 
        agencies.
  <bullet> Survivable and Redundant Communications.--Following 
        Hurricane Maria, Puerto Rico's communications infrastructure 
        was so completely devastated that assessing the needs and the 
        capability of Puerto Rico and its municipalities proved 
        extremely difficult. FEMA provided satellite phones to each of 
        the 78 municipalities in Puerto Rico to gather information on 
        municipality impacts and critical needs. However, this short-
        term solution had limited success in addressing overall 
        communications challenges. The private sector played a key role 
        in restoring communications, including cell towers and allowing 
        open roaming services, and is a critical partner for 
        restoration of communications.
  <bullet> Responding During Long-Term Infrastructure Outages.--Too 
        often, we assume the loss of power, communications, and water 
        infrastructure following disasters will be limited in duration. 
        The condition of critical infrastructure in Puerto Rico and the 
        U.S. Virgin Islands, the logistical difficulties of 
        transporting crews and equipment to the islands, as well as a 
        number of other unique factors, created significant challenges. 
        We need to be prepared for long-term outages of these critical 
        systems, while our SLTT and private-sector partners work to 
        mitigate future damages to these vital systems.
  <bullet> Land Use Planning.--In Texas, we saw the importance of land 
        use planning and local building codes. New development should 
        be built away from high-hazard areas and existing structures 
        should be relocated to safer areas when possible to minimize 
        impacts from hazards. It's both how we build and where we build 
        that affect local and regional risk. Land use regulations are a 
        vital resilience tool for local governments and FEMA encourages 
        regional coordination to help make decisions that best reduce 
        risk. Codes and standards are also only as good as the 
        mechanisms in place to enforce them.
  <bullet> Disaster Sheltering and Housing.--Providing housing for 
        survivors following the 2017 hurricanes was a challenge, 
        especially when a disaster devastates a community that already 
        had limited affordable housing. Regardless of the readiness of 
        an SLTT government, when dealing with the displacement of tens 
        of thousands of survivors from their homes, there is no easy or 
        one-size-fits-all solution. FEMA has authorities to provide 
        sheltering options including the Transitional Sheltering 
        Assistance (TSA) program that provides assistance to SLTT 
        governments for survivors to stay in hotel rooms, as well as a 
        program that provides for basic and temporary home repairs to 
        make a home safe and habitable while the survivor makes 
        arrangements for more permanent repairs.
    Any sheltering option is, by design, a temporary, short-term 
        solution, designed to be a bridge to middle- and longer-term 
        solutions. We have other programs and authorities that assist 
        with housing, including rental assistance, repair assistance, 
        multi-family lease and repair program, and manufactured housing 
        units. With all of these options, we partner with our SLTT 
        stakeholders to identify the sheltering and housing solutions 
        that make the most sense for each State, each event, each 
        community, and each survivor.
    The State of Texas, for example, is taking a very hands-on approach 
        to managing housing solutions for their residents after 
        Hurricane Harvey. States have a much better familiarity with 
        the needs of their residents, the local laws and ordinances 
        that can impact some of the FEMA housing options, and are 
        better situated to design and administer to the survivors in 
        their communities. Regardless of the tools we are able to 
        provide, however, permanent housing solutions and full recovery 
        needs are best addressed by insurance. FEMA assistance programs 
        are not designed to return a survivor's home to its pre-
        disaster condition. As we know, though, there are too many 
        people in our Nation that are underinsured or not insured at 
        all.
                          fema strategic plan
    We used many of these lessons to inform the goals in our Strategic 
Plan, which includes: (1) Building a Culture of Preparedness; (2) 
Readying the Nation for Catastrophic Disasters; and (3) Reducing 
Complexity of FEMA Programs.
Build a Culture of Preparedness
    First, we need to acknowledge that during a disaster, individuals 
in the impacted communities are the first responders. We need to 
empower individuals with life-saving skills to help speed the response 
and recovery efforts. Do they know how to shut off their water and gas? 
Do they know to check on their neighbors? Do they know CPR? We also 
need to encourage individuals to be financially prepared for disasters.
    Another key element to fostering a culture of preparedness is 
closing the insurance gap, which is the difference between what is 
currently insured and what is insurable. There is no more important or 
valuable disaster recovery tool than insurance, and we need to 
dramatically increase coverage to close the gap. This of course 
includes our country's National Flood Insurance Program.
    As we approach the 2018 hurricane season, it is more important than 
ever that individuals protect themselves with flood insurance. Flood 
insurance--whether purchased from the National Flood Insurance Program 
(NFIP) or through private carriers enables insured survivors to recover 
more quickly and more fully after flood events. It is one of the best 
ways for individuals to financially protect themselves from losses 
caused by floods. Without flood insurance, survivors must recover with 
loans and very limited Federal assistance. For example, in Harris 
County, Texas following Hurricane Harvey the average Individual 
Assistance grant was $4,200, in comparison to the average insurance 
claim payment of $113,000.
    Following a series of short-term extensions--and two brief lapses 
in the program's ability to sell and renew policies--Congress must now 
reauthorize the NFIP to sell and renew flood insurance policies no 
later than July 31, 2018.
    FEMA continues to emphasize the importance of a multi-year 
reauthorization to promote stability in the real estate and mortgage 
markets and enable households and businesses to manage their risks 
through the purchase and renewal of flood insurance policies.
    But it's not just flood insurance. All types of insurance have a 
role to play in reducing financial risk for individuals, communities, 
and Federal taxpayers. We aim to help transfer risks from individuals 
and governments to private insurance and reinsurance markets, through 
public education and innovative programs.
    Those who are most vulnerable are also less likely to have 
insurance--making their disaster recovery even more challenging, and in 
some cases, nearly impossible. FEMA programs were never intended to 
supplant homeowners' insurance policies. FEMA's average disaster 
payment to individuals and households is a few thousand dollars. This 
is far short of what most homeowners would need to rebuild, yet few 
individuals understand the limited scope of FEMA's individual 
assistance programs.
    We also need to build more resilient communities to reduce risks to 
people, property, and taxpayer dollars. Developing resilient 
communities ahead of an incident reduces loss of life and economic 
disruption. When communities are impacted, they should focus on 
rebuilding infrastructure smarter and more resilient to reduce risks of 
damages, protect taxpayer investments, and promote economic stability.
    Thus, as some are aptly calling our ``moonshot,'' FEMA aims to 
quadruple National investment in mitigation by 2022. The National 
Institute of Building Sciences in the United States recently released a 
study that found, on average, $1 spent on Federally-funded mitigation 
grants saves the Nation $6 in future disaster costs. This is up from a 
2005 study that found that $1 spent on mitigation results in $4 in 
savings.
Reorganization
    As you may surmise, many of these objectives under the Culture of 
Preparedness Goal are closely related and all aimed at making our 
Nation more resilient. In order to ensure our agency is aligned with 
this goal, the administrator recently announced the formation of a new 
organization in FEMA called Resilience.
    The new organization includes the National Preparedness 
Directorate, Grant Programs Directorate, Federal Insurance and 
Mitigation Administration, and National Continuity Programs. I am proud 
to lead the new Resilience organization as deputy administrator, along 
with Carlos Castillo, who is our associate administrator for 
Resilience.
Ready the Nation for Catastrophic Disasters
    Of course, if we are more resilient as a Nation, we can focus more 
of our efforts on readiness for truly catastrophic disasters. As I 
mentioned earlier, the 2017 disasters challenged many of our planning 
assumptions for catastrophic disasters. We can't just continue to plan, 
train, and exercise for what's easy; we need to prepare for 
catastrophic events that stress our logistics, supply chain, continuity 
of operations, communications, and staffing capacities--just to name a 
few.
    FEMA's internal focus will be on ensuring that the agency is ready 
for catastrophic disasters. Thus for the 75 percent of Presidentially-
declared disasters that are under $41 million each year, FEMA is 
looking for State and local governments to play a more significant 
role. FEMA will continue to fund recovery for these smaller disasters, 
but will increasingly rely on the State and local governments to manage 
their own recovery programs.
    FEMA aims to have these smaller disasters be Federally-supported, 
State-managed, and locally executed. An example of this is in Texas 
where the State has stepped forward to run the housing mission there 
rather than it being a Federally-led endeavor. This allows the State to 
administer innovative housing solutions with FEMA support. We are also 
working on embedding more FEMA staff with our State and territorial 
partners to help them with readiness for catastrophic disasters.
Reduce Complexity of FEMA
    Finally, FEMA is committed to simplifying our recovery process and 
making FEMA's programs as clear and easy as possible for survivors to 
navigate. We can't implement any of these goals and strategies without 
ensuring they meet the needs of survivors. Throughout the Federal 
Government, there are a number of programs intended to offer assistance 
to survivors. We are working with our partners to streamline and 
consolidate some of these activities to ensure survivors can better 
navigate our various programs.
                               innovation
    The Strategic Plan provides us a framework through which we can 
develop and create innovative solutions to the challenges we faced--and 
lessons we learned--during the 2017 disasters.
Streamlining Inspection Process
    One of the innovations we implemented real-time during the 2017 
hurricanes was in line with our third strategic priority, reducing the 
complexity of FEMA. Thanks to some outside-the-box thinkers in the 
field, we were able to streamline some of our processes for disaster 
survivors. One way FEMA supports local communities post-disaster is by 
providing damage estimates that can validate damage to a survivor's 
dwelling, when requested. Information collected during damage estimates 
often duplicates information collected from other inspections, 
including those for individual assistance and flood insurance. These 
overlaps can result in unnecessary process delays and wasted resources.
    A mitigation team was working in Austin, Texas, to support 
Hurricane Harvey and wanted to find a way to streamline the process. 
The mitigation team then piloted a way to collect and analyze 
individual assistance and National Flood Insurance Program (NFIP) 
inspection data to create a ``damage portfolio'' to triage homes that 
likely were, or were not, damaged substantially by the disaster. This 
initial information collection negated the need for a second 
substantial damage inspection.
    Thus far, the pilot has been a huge success:
  <bullet> It reduced damage inspections by 66 percent and already 
        saved $14 million by reducing inspection costs.
  <bullet> We inspected 29,000 structures damaged by Hurricane Harvey 
        instead of 80,512.
  <bullet> We reduced the total project completion time from 123 
        workdays to 51 workdays.
    We are exploring ways to use technology to further streamline the 
inspection process.
Crowdsourcing
    FEMA also leveraged crowdsourcing data from digital volunteer 
networks to enhance situational awareness during the 2017 disasters. 
Volunteers crowdsourced information from on-line sources, including 
social media and other open datasets, to build curated products and 
maps. They reviewed satellite imagery creating more comprehensive maps 
and analyzed aerial imagery to assess damage.
    Coordination between FEMA and these volunteers created two-way 
communication to foster unity of effort. FEMA used crowdsourcing to a 
greater degree than in previous disasters to augment its traditional 
methods to gain situational awareness on critical infrastructure. 
Crowdsourcing also aided the agency in collecting and analyzing images 
to determine the extent of the damage in Puerto Rico.
IMMERSED
    Consistent with our first strategic goal, we are looking at ways to 
reduce risk through mitigation efforts. Flooding is the most common and 
costly natural disaster, which is why it's critical for community 
leaders to be equipped with the information, tools, and skills needed 
to take mitigation action and build resiliency. To help educate 
community leaders about the value of being prepared for the worst, FEMA 
created a virtual reality experience about flooding and resilience 
called IMMERSED.
    Using technology to place users at the center of a flood crisis, 
IMMERSED allows them to assess damage in a community and see the 
benefits of mitigation first-hand. By working through simple tasks, 
users experience a major flood event in a realistic manner. After 
experiencing IMMERSED, users are encouraged to explore additional 
information about mitigation actions and are provided details on grants 
and other available programs to support communities.
Modernizing the HURREVAC Application
    For years, the HURREVAC application, a storm tracking and decision 
support tool of the National Hurricane Program, supported emergency 
managers as they handled the challenge of developing detailed 
evacuation plans, preparing staff through training exercises, and 
evaluating real-time forecasts to determine if evacuations were 
necessary. FEMA created a working group with State, local, and Federal 
partners to provide input into the next generation of HURREVAC. Working 
in collaboration with the DHS Science and Technology Directorate, the 
working group focused on how FEMA could enhance the current HURREVAC 
capabilities, creating an integrated common operating picture for all 
levels of government.
    A new emergency management hurricane decision-support platform is 
being developed and will be tested during the 2018 Hurricane Season. 
This modernized application, called HV-X or HURREVAC-eXtended, will 
enable emergency managers to make timely and accurate evacuation-
related decisions.
Flood Apex Program
    The Flood Apex program at the DHS Science and Technology 
Directorate is supporting FEMA in driving new innovation for the flood 
management community. It was created to bring together new and emerging 
technologies with the sole purpose of increasing community resilience 
to flood disasters. Flood Apex provides new decision support tools to 
FEMA, State and local governments, and other stakeholders throughout 
the emergency management community.
    Flood Apex is developing new lightweight, networked flood sensors 
through the Small Business Innovation Research program that are cheaper 
than current solutions and easier to deploy in large numbers. These 
sensors can be deployed in a variety of locations that experience 
flooding, not just along rivers. Damages to critical infrastructure, 
such as roads, bridges, dams, and levees, make up a significant portion 
of the costs from flood disasters.
Future Innovations
    We are also exploring the use of Unmanned Aerial Systems (aka 
drones) for aerial imaging in remote, contaminated, hazardous, or 
dangerous areas that pose significant risks to aircraft crews or ground 
personnel; as well as tactical search-and-rescue or victim recovery 
operations that require dynamic, near-real-time observation systems.
    We're looking to harness innovative solutions to advance our other 
strategic goals as well. For example, FEMA is using what we call 
PrepTalks to advance our priority on fostering a culture of 
preparedness and to spur innovation within the emergency management 
community. PrepTalks are given by subject-matter experts and thought 
leaders to spread new ideas, spark conversation, and promote innovative 
leadership for the issues confronting emergency managers now and over 
the next 20 years.
    Last, we recognize that good ideas for innovation can come from a 
diverse range of sources. Administrator Long hosted ``Discovery Change 
Sessions'' to engage stakeholders and inform the Strategic Plan. FEMA 
received 2,300 comments from these sessions, and we conducted a trend 
analysis that informed the three goals in our Strategic Plan. 
Additionally, the administrator initiated Partner Strategy Sessions, 
welcoming more than 150 members of the public to share thoughts and 
reactions to our Strategic Plan. From these sessions, FEMA received 
1,100 ideas for implementing the Strategic Plan. We believe that our 
Strategic Plan is not only applicable to what we do at FEMA, but can be 
a blueprint for all levels of emergency management.
    FEMA also is empowering its own employees at all levels, and 
promoting a culture of learning, creativity, and innovation within the 
agency through our Innov8 initiative. Innov8 is an agency-wide 
collaborative process that allows all FEMA employees, including 
Reservists and IM COREs, to submit proposals for action aligned with 
the 2018-2022 FEMA Strategic Plan.
                               conclusion
    Congress, and this committee in particular, is a crucial partner in 
this process. I appreciate the active engagement of this committee as 
we look for ways to more effectively fulfill our mission.
    Thank you for this opportunity to testify before this committee, 
and I welcome any questions you may have.

    Mr. Donovan. Thank you, sir. The Chair now recognizes Mr. 
Cotter for 5 minutes.

   STATEMENT OF DANIEL M. COTTER, DIRECTOR, FIRST RESPONDERS 
 GROUP, SCIENCE AND TECHNOLOGY DIRECTORATE, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Cotter. Chairman Donovan, Ranking Member Payne, 
distinguished Members of the committee, thank you for inviting 
me here to speak today. I appreciate the opportunity to discuss 
Department of Homeland Security Science and Technology 
Directorate's work in using innovative technology to enhance a 
culture of preparedness. Chairman Donovan, I would like to also 
take this opportunity to again, thank you for your visit to New 
Steel in New York City last August.
    Both our staff and many local first responders, they really 
appreciated the opportunity to show you the innovative work 
they have been doing, it has been a real lasting boost to both 
our staff's morale and the first responders and community. So 
thank you for that, sir. I have been the director of the First 
Responders Group or FRG for the last 3 years, and I have over 
30 years of experience working on programs to aid and 
preparedness. Science and Technology partners with the agencies 
at all level of government by developing requirements, 
conducting technology scouting, leveraging existing 
investments, developing innovative technologies, testing and 
evaluating technologies, transitioning and commercializing 
technologies.
    But most importantly, integrating these technologies into 
regular use. For example, the Flood Apex Research Program was 
initiated at the direct request of the FEMA administrator. We 
have partnered on research related to public safety 
communication for nearly 15 years with the public safety 
communications research laboratory for the National Institute 
of Standards, represented by Derek Orr here today with us.
    I would like to use my time to highlight several examples 
of our work on behalf of FEMA and the public safety community 
from my written testimony. Providing advanced personal 
protective equipment for first responders is one of our key 
research areas. In the past, we have developed lightweight 
wildland fire fighting gear with over 17,000 units in use at 
this time.
    We recently developed new firefighter gloves that provide 
high levels of burn and puncture protection and far greater 
dexterity. Over 2,300 pairs of these gloves have been sold to 
date. One of our latest products to come on the market is 
improved turnout gear for firefighters. In essence this is 
their work suit, this is what they wear when they go to work in 
a fire.
    The new gear we have developed is specifically designed to 
reduce exposure of firefighters to cancer-causing particulate 
matter. We have achieved this by adding Nomex leather 
interfaces around things like the wrists, to prevent the 
cancer-causing particulate matters for reaching the skin of 
our--of our firefighters.
    Another example RIC-M, the Radio Internet-Protocol 
Communications Module. This $800 device provides an alternative 
for public safety organizations to spending $15,000 or more to 
upgrade their legacy radio systems. We have sold or our 
commercial partners sold over 450 of these units. That is a 
cost avoidance benefit to public safety of about $6.5 million.
    Finally, I would like to highlight our low-cost flood 
sensors. Today, we rely heavily on highly capable hydrologic 
and meteorologic monitoring stations for flood warnings. 
However, these stations may cost as much as $50,000 or more. 
The sensors we are developing will cost under $1,000, this will 
enable communities to economically densify flood detection 
networks, extending the abilities of communities to detect 
rising water beyond what is currently possible.
    This will allow for improved local flood warnings, leading 
to fewer deaths, injuries, and damages. My written statement 
for the committee includes additional work examples including 
our collaboration with FEMA and with PSCR. We in S&T work, 
support, and improve at all levels of government first 
responder safety and effectiveness to mitigate the impacts of 
natural disasters, as well as support other missions outlined 
in my written statement by developing innovative tools to 
enhance mission performance and preparedness.
    Chairman Donovan, Ranking Member Payne, distinguished 
Members, thank you again for your attention to this important 
mission, and for the opportunity to discuss and work with you 
today. I look forward to answering your questions.
    [The prepared statement of Mr. Cotter follows:]
                 Prepared Statement of Daniel M. Cotter
                             July 25, 2018
    Chairman Donovan, Ranking Member Payne, and distinguished Members 
of the committee, thank you for inviting DHS to speak with you today. I 
appreciate the opportunity to discuss the Department of Homeland 
Security (DHS) Science and Technology Directorate's (S&T) work in 
``Using Innovative Technology and Practices to Enhance the Culture of 
Preparedness.''
    I have been the director of the First Responders Group (FRG) for 
the last 3 years and have over 30 years of experience working on 
programs related to preparedness. Prior to my time at FRG, I served as 
the DHS chief technology officer and geospatial management officer. In 
addition, my career has included 17 years of experience working for the 
Federal Emergency Management Agency (FEMA), the U.S. Army Corps of 
Engineers, and the U.S. Geological Survey, and a decade of experience 
working at the executive level in the private sector. My experience in 
this field led to my selection as a fellow of the American Association 
for the Advancement of Science in 2005.
                        culture of preparedness
    FEMA's Strategic Plan for 2018-2022 sets clear goals for building a 
culture of preparedness and readying the Nation for catastrophic 
disasters. The strategy recognizes the critical roles that State, 
local, Tribal, and territorial (SLTT) governments, as well as the 
private sector and non-governmental organizations (NGO's), have in 
preparedness and response.
    S&T, through research programs such as the Flood Apex program, 
Hurricane Technology Modernization, and Radiological/Nuclear (Rad/Nuc) 
Response and Recovery project, is delivering innovative capabilities 
for FEMA to help meet these goals. These include new capabilities that 
were used operationally by FEMA during the 2017 hurricane season.
    Critically, all of these programs are based not only on our 
partnership with FEMA, but also on a strong, collaborative focus with 
our SLTT, private-sector, and NGO partners. Through these collaborative 
efforts, we are working with FEMA to ensure that the results of our 
research increase disaster response and resiliency at all levels of 
governments.
    The vast majority of incidents are handled at the local and State 
level. For example, first responders and emergency management officials 
handle over 240 million 9-1-1 calls per year, rarely requiring any form 
of assistance from the Federal Government. However, in those rare 
instances when the SLTT community requests the support of the Federal 
Government, it is paramount that the responding Federal community is 
instantly interoperable with the SLTT community, able to communicate, 
and share mission critical data. Federal authorities' ability to 
integrate to a wide variety of local needs is essential for rapid and 
effective response. Technologies and standards to share data range 
broadly from the status of first responder resources in the impacted 
area to the status of critical infrastructure, including energy, water, 
communications, and transportation lifelines.
    Additionally, improved modeling, data analytics, and mitigation 
techniques are critical to increase resilience. The need for 
technologies to ensure interoperable communications and information 
sharing between and amongst the Nation's tens-of-thousands of 
governmental units and first responder organizations is more critical 
than ever before.
                  the role of research and development
    S&T is unique and essential in its ability to perform research for 
our operational components and across the Homeland Security Enterprise. 
DHS S&T has statutory responsibilities to perform research to develop 
new technologies that enhance safety and efficiency for all first 
responder disciplines, such as enhanced personal protective equipment, 
and ensure public safety voice and data communications interoperability 
between and among the Federal Government and the SLTT public safety 
community.
    S&T understands that having the right technology in the hands of 
the Nation's 3.3 million first responders can save critical minutes or 
seconds--and reduce injuries, save lives, and limit property damage. 
S&T plays an indispensable role in the Federal Government conducting 
critical research and development for first responders across all 
disciplines and at all levels of government. These responders serve in 
over 70,000 organizations across the Nation including not just FEMA, 
but DHS operational components, such as the U.S. Immigration and 
Customs Enforcement (ICE), U.S. Customs and Border Protection (CBP), 
Transportation Security Administration (TSA), U.S. Coast Guard (USCG), 
U.S. Secret Service (USSS), and the National Protection and Programs 
Directorate (NPPD). The needs of responders and the public are at the 
center of every decision FRG makes. That is why S&T partners with 
agencies at all levels of government by developing requirements, 
conducting technology scouting, leveraging existing investments, 
developing innovative technologies, testing and evaluating 
technologies, transitioning and commercializing technologies, and 
integrating technologies into regular use.
    S&T supports operational components to address some of the most 
critical issues facing the Department and first responders, including: 
Improving first responder safety and effectiveness; mitigating impacts 
of natural disasters; providing tools to render safe Improvised 
Explosive Devices (IEDs); assisting survivors from earthquakes and 
other disasters; identifying threats in passenger bags; saving children 
from human trafficking, slavery, and sexual abuse; and improving 
situational awareness for humanitarian assistance and disaster relief. 
S&T also provides systems engineering advice to support complex, 
integrated technical solutions, human systems integration, architecture 
development, and transition and acquisition decisions.
    The goal of FRG research is to ensure first responders: Have the 
personal protective equipment they need to work safely in any 
environment; are never out of touch with their peers or command 
regardless of where they are operating; and have all information needed 
in real time to operate safely, effectively, and efficiently. We 
summarize this by saying that the first responder of the future will 
be: Protected, Connected, and Fully Aware.
    The Next Generation First Responder (NGFR) Apex Program is a 5-year 
program that began in January 2015, and is part of a longer-term S&T 
commitment to envision and assist the responder of the future. NGFR 
continually collaborates with first responders across the Nation on 
various projects--from developing program requirements to testing 
prototypes of technology. These cutting-edge technologies will improve 
emergency response time and accelerate decision making to save more 
lives.
    NGFR is comprised of more than 15 research and development 
projects, ensuring that responders are better protected, connected, and 
fully aware. NGFR is enabling new, non-traditional public safety 
technology developers--including start-ups--to easily ``plug and play'' 
their technologies into a system. NGFR reduces barriers to developing 
first responder technology and opens doors to entrepreneurs, while 
lowering costs and increasing choices for public safety organizations. 
NGFR is incrementally delivering these capabilities over the program 
cycle and will continue to partner with first responders to test and 
evaluate innovative technologies before they are available on the 
market.
    FRG partners closely with NPPD's Office of Emergency Communications 
and the Department of Commerce's National Institute of Standards and 
Technology (NIST) and National Telecommunications and Information 
Administration (NTIA) as well as their associated Public Safety 
Communications Research (PSCR) program. By collaborating with these 
partners, as well as coordinating directly with the First Responder 
Network Authority (FirstNet), an independent authority within NTIA, FRG 
is playing an important role in the implementation of the Nation-wide 
public safety broadband network.
                         traceable requirements
    As a research organization, S&T recognizes that it is a mission 
support organization and does not own the DHS component or first 
responder mission. Our job is to understand the needs of the 
communities and focus our research efforts into developing effective 
solutions. Our goal for most of our first responder research activities 
is to provide solutions in the 18-24 month time frame. We make sure 
that these new technologies and capabilities are available to first 
responders by coordinating closely with FEMA to assure that these 
technologies can be made available on the FEMA Authorized Equipment 
List (AEL), and therefore eligible for purchase with Federal grant 
dollars. This includes working with groups such as the National Fire 
Protection Association (NFPA) and NIST, to ensure compliance with all 
applicable standards.
    To gather and validate requirements, S&T works directly with front-
line mission personnel at all levels of government and from all 
disciplines. As part of this effort, S&T leads the First Responder 
Resource Group (FRRG), which is composed of 140 fire, emergency medical 
service (EMS), emergency managers, and law enforcement first responders 
from various State, local, and Federal agencies across the country, 
including DHS operational components. This group meets annually to 
identify high-priority capability gaps and to help make first 
responders aware of technologies that S&T has transitioned to the 
commercial market. The most recent meeting was held earlier this year 
and included over 103 attendees with representatives from DHS component 
agencies that included FEMA, ICE, CBP, USCG, the Federal Law 
Enforcement Training Centers (FLETC), and the Federal Air Marshal 
Service. By the end of the meeting, the FRRG members were able to help 
S&T identify 24 new capability gaps, which will assist in determining 
what new projects will be funded by S&T and ultimately transitioned to 
the commercial market place for the first responder community to 
purchase.
    The FRRG process has led to dozens of cost-effective solutions, 
such as:
  <bullet> The Electronic Recovery and Access to Data Prepaid Card 
        Reader, a card-reading device system capable of analyzing and 
        freezing funds on pre-paid bank cards that are suspected of 
        having ties to criminal activity. The device is being used in 
        42 States by over 900 agencies, as well as in 3 other 
        countries. Federal, State, local, and Tribal law enforcement 
        agencies have seized over $10 million in criminal funds after 
        law enforcement conducted investigations and obtained authority 
        to seize these funds through the judicial system.
  <bullet> FRG developed the Wildland Firefighters Advanced Personal 
        Protection System to provide unprecedented protection to 
        wildland firefighters. The NFPA certified garment system 
        improves radiant thermal protection; reduces heat stress; and 
        improves form, fit, and function. The garments are commercially 
        available from two manufacturers who have sold more than 20,000 
        garments.
  <bullet> In partnership with first responders, the U.S. Army and the 
        private sector, S&T developed the Enhanced Dynamic Geo-Social 
        Environment (EDGE) Virtual Training tool that is available free 
        of charge to any first responder agency across the country. S&T 
        established a point of distribution for the software and the 
        first environment, a multi-story hotel. Currently, 600 agencies 
        across the Nation are using EDGE, as well as two other nations. 
        A school building environment will be available later this year 
        and promises to help first responders and school personnel 
        better prepare for active-shooter incidents.
                            tangible results
    S&T, through its FRG, has transitioned 47 products and completed 80 
other projects that have resulted in knowledge products such as 
standards, concepts of operations, and other guidance for first 
responders. Working with the DHS operational components, S&T has built 
strong partnerships to deliver technically sound, cost-effective 
technologies that have yielded significant impacts including:
  <bullet> Aided in identifying over 475 child exploitation victims, in 
        coordination with ICE's Homeland Security Investigations, using 
        advanced facial recognition tools.
  <bullet> Improved emergency management mutual aid in 40 States, 
        reducing time to identify resources from 72 hours to as little 
        as 30 minutes.
  <bullet> Partnered with 14 countries and over 40 start-ups to 
        increase technology development globally and bring new 
        technology to market more efficiently.
  <bullet> Deployed the Android Team Awareness Kit (ATAK) to enhance 
        situational awareness at National and border security events. 
        ATAK is a tool that allows all emergency workers to share 
        situational awareness in an unprecedented way. ATAK has already 
        saved lives during emergency response activities by enabling 
        300 unique users across 17 agencies participating in the 
        hurricane response (i.e., Hurricane Harvey, Hurricane Irma, 
        Hurricane Maria) to share information and awareness via ATAK, 
        which impacted 3,000 rescues.
  <bullet> Supported search-and-rescue units across the globe, 
        including FEMA's Urban Search-and-Rescue teams, by rapidly 
        locating survivors buried under collapsed buildings after 
        earthquakes through the use of Finding Individuals for Disaster 
        and Emergency Response (FINDER). FINDER is a tool that detects 
        human heartbeats under rubble piles.
  <bullet> Supported radiation detection training, through the National 
        Urban Security and Technology Laboratory, for over 2,000 law 
        enforcement officers.
  <bullet> Published over 1,000 System Assessment and Validation for 
        Emergency Responders (SAVER) Reports--S&T's version of Consumer 
        Reports for responder technologies.
  <bullet> Published the Radiological Dispersal Device (RDD) Response 
        Guidance: Planning for the First 100 Minutes, co-branded with 
        FEMA and the Department of Energy's National Nuclear Security 
        Administration, which was incorporated into FEMA preparedness 
        planning and training.
  <bullet> Integrated the Rad Decontamination App into FEMA's 
        RadResponder toolkit. RadResponder is a smartphone app that can 
        be downloaded by any first responder and provides them with 
        just-in-time guidance to deal with rare radiological events.
  <bullet> Created the Toolkit for Radiological Operations Support 
        Specialist (ROSS), a FEMA National Incident Management System 
        position developed with S&T, which is posted to RadResponder 
        for first responder access.
  <bullet> Provided technology evaluations to enhance responder 
        capabilities during Active-Shooter events, including an 
        exercise last year with the New York Police Department, Fire 
        Department of New York, Metropolitan Transportation Authority 
        (MTA) Police Department and MTA Metro-North Railroad, New York 
        State Police, and U.S. Army National Guard.
  <bullet> Developed the Smoke and Particulate Resistant Structural 
        Turnout Ensemble, the first turnout gear to offer firefighters 
        protection from exposure to hazardous, cancer-causing 
        chemicals. Today, there is an extremely high likelihood of a 
        firefighter developing cancer due to exposure to hazardous 
        chemicals and particulates.
  <bullet> Developed and tested the Pat-down Accuracy Training Tool, a 
        mannequin with embedded sensor technology that provides 
        objective feedback on pressure, sequence, and coverage during 
        pat-downs at four airports and the TSA Academy.
                    s&t innovations and preparedness
    Working with FEMA in supporting the strategic goals of a culture of 
preparedness and readying the Nation for catastrophic disasters, S&T is 
collaborating with Federal, State, local, territorial, and Tribal 
governments, as well as the private-sector and non-governmental 
organizations to advance a whole-of-community approach to increase 
disaster preparedness.
Shaken Fury
    This includes support to FEMA's 2019 National exercise Shaken Fury 
19, which S&T is using to help elevate regional resilience in the New 
Madrid Seismic Zone through the generation and adoption of new 
information-sharing technologies and protocols that will enhance shared 
situational awareness between critical response and recovery 
organizations and their associated operations centers. This transition 
of new innovations and technologies is facilitated through a strong 
standing relationship with the Central United States Earthquake 
Consortium (CUSEC), an association of 8 member and 10 associated 
States.
    Within the scope of Shaken Fury 19, S&T is working with FEMA and 
CUSEC, as well as the Department of Defense and the National Guard, to 
integrate several new candidate capabilities such as:
  <bullet> CUSEC Regional Common Operating Picture enhancements
  <bullet> Tools and guides to improve situational awareness and 
        emergency management response
  <bullet> Mutual Aid Resource Planner
  <bullet> New technologies for communications restoration, including 
        the next generation of deployable communications infrastructure
  <bullet> Autonomous mass casualty patient monitoring and tracking
  <bullet> Use of unmanned aerial systems for damage assessment
  <bullet> Testing of S&T sponsored low-cost flood sensors.
    S&T recognizes the importance of capturing lessons learned from 
events such as Shaken Fury 19; therefore, S&T has developed an Incident 
Management Information-Sharing Capability Maturity Model (IMIS CMM) 
that provides a means for the SLTT community to objectively assess 
their ability to share information with partners. Assessment results 
will be used to steer corrective actions to increase interoperability 
between all levels of government.
Flood Apex program
    The Flood Apex program was created at the request of the 
administrator of FEMA to bring together new and emerging technologies 
designed to increase communities' resilience to flood disasters and 
provide new decision support tools to FEMA, State, and local 
governments, and other stakeholders. The Flood Apex program is focused 
on six research challenges:
  <bullet> Reducing flood fatalities
  <bullet> Reducing uninsured losses
  <bullet> Improving mitigation investment decisions
  <bullet> Enhancing community resilience
  <bullet> Improving data and data access
  <bullet> Improving modeling and predictive analytics.
    To address these challenges, S&T is focused on:
  <bullet> New flood sensors and alerting
  <bullet> Smarter remote sensing and situational awareness
  <bullet> New products from high-performance computing and artificial 
        intelligence
  <bullet> Realigned economic incentives and risk analysis.
    While the Flood Apex program is not scheduled for completion until 
fiscal year 2020, research products are already transitioning into 
operational use. These include the use of deep learning techniques with 
high-resolution satellite and aerial imagery, to produce building 
outlines needed by FEMA for recovery operations. Over the course of 
hurricane response and recovery operations, S&T delivered over 19 
million building outlines across 8 States, Puerto Rico, and the Virgin 
Islands. These outlines supported a variety of Federal and SLTT 
emergency management and first-responder functions and activities. FEMA 
alone used these data to expedite over 115,000 damage assessments. The 
Flood Apex technologies helped support FEMA in speeding the release of 
over $200 million in disaster assistance to survivors.
    Other technologies, such as the low-cost flood sensors, Observed 
Flood Extent, and HAZUS Tsunami Module, have been proven and are now 
moving to various States of adoption and use. We are working with the 
Association of State Flood Plain Managers and others to stimulate 
flood-proofing innovation and advance flood mitigation. These 
innovations include pursuing development of Nationally-recognized 
standards for flood-proofing products, such as water-proofing 
materials, semi-permeable barriers, and smart sensors.
    On-going Flood Apex research is supporting FEMA in the areas of 
flood insurance research, working with leaders in the private sector 
and academics. FEMA recognizes that insurance is one of the most 
important disaster recovery tools. Our research is focused on helping 
FEMA to close the insurance coverage gap in the area of flood 
insurance.
Wireless Emergency Alerts
    S&T's research and development efforts are also having game-
changing results on emergency alerts, warnings, and notifications to 
communities across the Nation. S&T led an effort to improve geo-
targeting capabilities and public response to alerts and warnings. In 
partnership with FEMA, the Federal Communications Commission (FCC), and 
the wireless industry, S&T helped develop Wireless Emergency Alerts 
(WEA) to enable the dissemination of alerts to mobile devices and the 
geo-targeting of specific locations so that only people in the affected 
area are notified. As part of FEMA's Integrated Public Alert and 
Warning System, WEA enables the distribution of Presidential alerts, 
AMBER alerts, and imminent threat alerts (e.g., hurricanes and 
tornadoes, where life or property is at risk) to mobile devices, 
including cellular phones and pagers. The FCC adopted FRG's research 
findings and recommendations on message effectiveness, increased 
character length, addition of URL links, pictures, and videos to the 
alerts, and employed new technology to support geo-targeting functions. 
In the last 5 years, WEA has been used to issue over 35,000 emergency 
alerts. The National Weather Service has sent well over 33,000 WEA 
alerts. California officials used WEA 4 times in response to the 2017 
wildfires in Northern California, and 16 times for the Los Angeles area 
wildfires to successfully move citizens to safety. WEA was also used 
extensively in all areas affected by the 2017 hurricanes, including 21 
WEA alerts sent in Puerto Rico. Additionally, WEA provides awareness 
that has aided in the recovery of missing children. In 2016 alone, 179 
AMBER Alerts were issued in the United States involving 231 children. 
Since system deployment in 2012, WEA has been credited with the safe 
return of 47 missing children.
Response and Defeat Operations Support (REDOPS)
    Recognizing a gap in responding to IEDs, S&T launched the REDOPS 
program, a collaborative effort with the Federal Bureau of 
Investigation (FBI) and the National Bomb Squad Commanders Advisory 
Board to develop render safe countermeasures for the Nation's 466 bomb 
squads. REDOPS develops innovative tools, as well as Tactics, 
Techniques, and Procedures to support State and local bomb squads. 
Results of this research have been published in 9 Special Technicians 
Bulletins and 16 Test and Evaluation Reports and have been incorporated 
into trainings by the FBI's Hazardous Device School.
Interoperable Communications
    One of S&T's key statutory responsibilities is in the area of 
ensuring first responder communications and data interoperability. It 
is the objective of S&T research in the area of interoperable 
communications to ensure that responders are always connected, even in 
the most challenging environments. S&T has a long history of 
collaboration with NPPD/OEC and NIST/PSCR on developing solutions for 
interoperable communicators based on LMR technologies.
    First Responder Electronic Jamming.--Without radio and cellular 
        communications, first responders' safety is imperiled and their 
        ability to perform their mission is jeopardized. S&T has 
        continued to conduct extensive research into the impacts and 
        mitigation of both intentional and unintentional jamming. Over 
        1,000 first responders at the Federal and SLTT levels have 
        participated in our innovative research and field 
        experimentation over the last several years. As a result of 
        these efforts, we have been able to produce technical guidance 
        on jamming detection and mitigation for the first responder 
        community and we are working with the private-sector equipment 
        manufacturers to help improve communications resiliency. 
        Additionally, S&T and the FCC released a joint alert to the law 
        enforcement community with findings from the 2016 First 
        Responder Electronic Jamming Exercise, which has reached more 
        than 100,000 stakeholders. The most recent exercise, held in 
        2017, evaluated how tactics and technologies could help first 
        responders identify, locate, and mitigate the impact of jamming 
        threats.
    Datacasting.--First responders often have problems sharing mission-
        critical information, especially video, when networks become 
        overloaded. S&T supported the development of a datacasting 
        capability, which enables voice and video communications to be 
        transported via existing broadcast television signals to 
        deliver encrypted data to targeted recipients. S&T conducted 
        various datacasting technology pilots with the city of Houston. 
        As a result of these pilots, Houston Fire Department is 
        currently using datacasting technology during operations. 
        Specifically, the Houston Fire Department used datacasting 
        technology to stream video from boots on the ground back to 
        command centers to provide situational awareness during 
        Hurricane Harvey response. The investment in datacasting 
        technology has helped to enable reliable video transmission 
        during large-scale events where bandwidth and network capacity 
        are usually problematic. Further, S&T is working with FLETC to 
        conduct a datacasting technology pilot to improve responder 
        training in fall 2018.
    Information Sharing.--We are working to provide first responders 
        with the information they need in a timely manner and provide 
        intelligent technologies that will help them filter through 
        meaningless information and manage their communications 
        seamlessly and without losing time and focus. This includes our 
        partnership with NASA JPL to develop artificial general 
        intelligence for first responders, a cutting-edge digital 
        assistant that provides data analytics, and alerting and 
        analysis. We have conducted testing of this technology in the 
        field and the feedback from first responders and 
        experimentation results have been extremely promising.
    Project 25 Compliance Assessment Program (P25 CAP).--S&T is 
        improving Land Mobile Radio (LMR) interoperability through P25 
        CAP, which has a rigorous process to ensure radio systems are 
        demonstrated to be compliant to standards and interoperable. 
        The program affects well over 1 million devices in use today. 
        S&T significantly enhanced the program to address new 
        interfaces and standards and formed a new partnership with the 
        Department of the Interior to establish a laboratory to test 
        new interfaces not tested before, which will also have a 
        potential impact on interconnection of LMR systems to FirstNet.
    Additionally, we have also developed an Integration Handbook, as 
part of the NGFR Apex program, to guide industry in development, 
design, test, and integration of responder technologies. This handbook 
outlines a ``plug-and-play,'' standards-based environment that enables 
commercially-developed technologies to integrate and interoperate. Once 
we have completed our coordination with industry and the first 
responder community, we hope that the Integration Handbook will become 
a key reference for first responder communications interoperability and 
part of the FEMA AEL guidance.
    Our research also extends into areas of close cooperation with 
PSCR. Some examples include:
  <bullet> Cooperation and coordination of research on in-building 
        location services
  <bullet> Use of LIDAR ``point clouds'' for situational awareness and 
        3-D mapping
  <bullet> Coordination of R&D on communications resiliency 
        (participation in First Responder Electronic Jamming Exercises)
  <bullet> Coordination of deployable communications in adverse 
        environments.
Hurricane Evacuation Planning and Decision Making
    We have collaborated with FEMA and the U.S. Army Corps of 
Engineers, as well as State and local emergency managers to develop the 
Nation's next hurricane evacuation planning and decision support 
system. This new system, called Web-Based HURREVAC, provides an 
anywhere, anytime, any device, mobile decision support and training 
platform for emergency managers during hurricanes. HURREVAC is being 
used by emergency managers in Atlantic and Gulf coastal States, Hawaii, 
the U.S. Virgin Islands, and Puerto Rico, and will be operational for 
the 2019 hurricane season to support 25,000+ emergency management 
stakeholders. This new system provides innovative visualizations of 
hurricane data and information for evacuation planning and decision 
making, reducing uncertainty at all stakeholder levels and improving 
shared understanding of available weather information and developing 
threats. Using this innovative technology to enhance preparedness will 
directly impact local communities by lowering the probability of over 
evacuations, avoiding unnecessary costs, as well as lowering the 
probability of under evacuations, saving lives.
Training and Virtual Reality
    Providing effective, realistic, and effective training tools for 
first responders is another role played by S&T. In addition to EDGE, 
S&T is developing virtual Incident Command System (ICS) training tools 
for firefighters, as well as training tools for TSA and CBP.
    We provided 45 ScreenADAPT systems to TSA and conducted 
evaluations with hundreds of Transportation Security Officers (TSOs) on 
single and dual view systems at 8 airports across the Nation. 
ScreenADAPT uses eye-tracking technology to examine visual search 
performance and adapt to trainee's needs in real-time. In some 
evaluations with TSOs, ScreenADAPT increased efficiency and 
effectiveness of trainees, reducing false alarms, and the need for 
unnecessary manual secondary bag searches that can slow checkpoint 
throughput. S&T developed a web-based version of ScreenADAPT and 
transitioned it to USSS to provide a distributed capability for 
advanced X-ray image analysis training to 500+ uniformed USSS officers. 
S&T also developed and implemented the Eye-dentify system, building off 
ScreenADAPT, at the FLETC CBP Field Operations Academy providing 
enhanced impostor detection training. Eye-dentify tracks an officer/
agent's eye movements during training to determine where, how long, and 
in what sequence a trainee is looking at an ID or a face.
    The U.S. Border Patrol (USBP) identified a need for improved 
tracking training tools, methods, technologies, and capabilities. 
Tracking, also known as ``sign cutting,'' is executed to find evasive, 
hidden, or missing people along our Nation's borders. S&T conducted an 
analysis of existing training, as well as in depth interviews, ride-a-
longs, and walk-throughs at various border locations. S&T then created 
comprehensive, video-based training utilizing both 2D and 3D videos 
that have been incorporated into the new training program for all 
newly-hired agents at the USBP Academy at FLETC. USBP Academy and FLETC 
representatives have collaborated with S&T to provide iterative 
requirements and for the development of a comprehensive web-enabled 
Signcutting and Tracking Training module that is being transitioned to 
provide a distributed capability for both new hire and recurrent/
refresher training.
National Urban Security and Technology Laboratory (NUSTL)
    NUSTL has been helping to secure American Cities against threats 
for over 60 years, delivering innovative technology, training, and 
science in 41 States and 306 cities across the country. This program is 
the DHS lead for testing of UAS counter measures technologies. In 
addition, the Laboratory develops and transitions to operational use 
rad/nuc response and recovery tools. These include modeling and 
simulation tools, radiological dispersal device guidance, and creating 
a Nationally-recognized position definition for a Radiological 
Operations Support Specialist. Through these efforts, NUSTL is enabling 
FEMA to:
  <bullet> Increase capability at all levels of government to manage 
        and characterize complex and catastrophic incidents.
  <bullet> Improve responders' ability to save lives during the initial 
        response operations of a radiological incident.
  <bullet> Minimize impact to community and economy through improved 
        methods of incident stabilization, radiological clean-up, and 
        recovery.
                          future of innovation
    The advent of the era of ``Big Data'' and the ``Internet of 
Things,'' combined with the emergence of a way to discover and move 
vast amounts of data and information that will result from the public 
safety broadband initiative, paves the foundation for our ability to 
make rapid progress toward building a culture of preparedness and 
readying the Nation for catastrophic disasters. The new tools S&T is 
working on in the areas of modeling and simulation, data analytics, and 
artificial intelligence will provide unparalleled capabilities to FEMA 
and the SLTT community to understand their hazards and risks, mitigate, 
respond, and recover.
    With the pace of innovation only accelerating, the power of 
information and technology in the hands of our first responders will 
increase dramatically over the next decade. S&T research, driven by the 
requirements of FEMA, other DHS operational components, and the first 
responder community, will be an indispensable part of this acceleration 
of first responder capabilities. As first responders become safer and 
ever more efficient in the mission, the capability of communities to 
withstand, recover from, and respond to catastrophic events will 
increase.
    Combine these advancements with more effective insurance coverage 
and tools, mitigation programs enhanced with better analytics and 
products, and far more efficient and effective interoperable 
communications, and we can be optimistic for a future characterized by 
increasing disaster resilience at the local and State level.
    S&T is adding value at the intersection of Smart Cities and 
Internet of Things (IoT) through the integration of new and existing 
technologies applied to public safety needs with an emphasis on 
commercialization through industry partners. S&T-funded programs to 
advance technologies and implement a streamlined process for getting 
capabilities commercialized and available to first responders and 
industry investment partners. In fact, we are funding 13 small 
businesses to integrate Smart City and IoT technologies in the 
following areas:
  <bullet> Unmanned Aerial Systems for indoor search and rescue;
  <bullet> Building sensors for detection and situational awareness; 
        and
  <bullet> SmartHubs for responder-focused mobile communication and 
        sensor suites.
    Four small businesses are showcasing their prototype SmartHub 
technologies today (July 25) in Chicago to public safety officials, 
building/real estate and insurance industry partners, and the venture 
capital community.
    Some of our planned Smart City development includes: Tampa, FL, and 
St. Louis, MO, as well as supporting public safety with established 
stakeholder communities (e.g. Torrance, CA; Ellicott City, MD; 
Charlotte-Mecklenburg, NC; Norfolk, VA; and the States of Kentucky, 
North Carolina, South Carolina, and Texas).
    Chairman Donovan, Ranking Member Payne, and distinguished Members 
of the committee, thank you again for your attention to this important 
mission and for the opportunity to discuss S&T's work in the area of 
preparedness. I believe that the preceding examples are representative 
of how DHS S&T is making a tangible difference in the work that 
America's first responders do every day. I look forward to answering 
your questions.

    Mr. Donovan. Thank you very much, sir. Mr. Orr, the Chair 
recognizes for 5 minutes and isn't it difficult to speak after 
somebody who brought toys with them?
    Mr. Orr. I feel a little bit under-prepared but----
    Mr. Donovan. That's all right, we will take it into 
consideration. Thank you.

   STATEMENT OF DERECK R. ORR, DIVISION CHIEF, PUBLIC SAFETY 
 COMMUNICATIONS DIVISION, NATIONAL INSTITUTE OF STANDARDS AND 
            TECHNOLOGY, U.S. DEPARTMENT OF COMMERCE

    Mr. Orr. Chairman Donovan, Ranking Member Payne, and 
Members of the subcommittee, I am Derek Orr, division chief of 
the Public Safety Communications Research Program, the PSCR at 
the National Institute of Standards and Technology known as 
NIST. Thank you for the opportunity to appear before you today 
to testify about innovations in the field of emergency 
communications.
    PSCR's mission is to research and develop critical 
technologies, features identified by public safety entity, so 
that these practitioners will soon have access to smarter, and 
more effective life-saving technology. PSCR works closely with 
public safety, government, and industry stakeholders through 
workshops and summits to publish R&D roadmaps and leverages 
those road maps to develop targeted strategies and program 
plans.
    We also work closely with our Federal partners including 
FirstNet and DHS's Science and Technology Directorate and the 
Office of Emergency Communications to ensure effective 
coordination mechanisms are in place to support our shared 
public safety mission. Our Nation's first responders deal with 
emergencies every day.
    Whether it is a routine traffic stop, a multi-alarm fire, 
or a large-scale event such as the hurricanes of last summer, 
or the attacks at 9/11, the ability of first responders to 
communicate with each other on scene as well as through 
Incident Command remains one of the most critical determinants 
of emergency response success.
    At PSCR, we believe that innovative technologies can help 
and we are working to accelerate their arrival. First, we 
conduct internal research at our laboratories across five key 
public safety technology areas. No. 1, ensuring voice 
interoperability between current land mobile radio and new 
broadband devices for the period of time that these two 
technologies coexist.
    No. 2, making mission-critical voice communications 
possible on new broadband devices. No. 3, advancing location-
based services for personnel and assets especially inside of 
buildings. No. 4, researching advanced user interfaces for 
their abilities to access and transmit complex information. No. 
5, promoting analytics tools that will help public safety make 
use of large amounts of data becoming available.
    Some of our most recent lab projects include using state-
of-the-art laser technology to quickly and easily map and 
develop three dimensional models of buildings for the creation 
of enhanced maps and location tracking for first responders, a 
virtual reality test environment to measure the impact of 
future user interfaces on public safety operations, mission-
critical voice measurement methods which will allow public 
safety and industry to compare land mobile radio with 
broadband, so as to determine when and if transition to 
broadband is possible for mission-critical voice 
communications, and small self-contained network-in-a-box 
prototypes which responders could rapidly deploy using drones 
to establish communications anywhere.
    Putting this technology in the hands of public safety 
personnel would help them assess emergency scenarios safely and 
smartly before sending in boots on the ground. It would help 
them reduce the harm to citizens and property and it would help 
them avoid unnecessary injury or even death.
    PSCR not only conducts internal research but also put 
substantial resources into promoting the development of these 
technologies externally through grants, cooperative agreements, 
and open innovation prize challenges. These efforts give NIST 
access to experts and innovators from around the world and 
greatly expand the number of researchers focused on key public 
safety communications issues.
    To date, we have provided over $40 million in grants in 
cooperative agreements to nearly 40 recipients, and more 
funding opportunities are on the way. Additionally, in 2018, 
PSCR launched and completed its first two technology-based 
prize challenges with total prize amounts of roughly $400,000.
    These challenges were focused on the use of drones for 
expanding network coverage and on using virtual reality to 
develop effective in-building navigation interfaces for future 
heads-up displays. Through these challenges, we have engaged 
with innovators from all walks of life, and seen companies in 
partnerships form.
    I firmly believe that encouraging these open partnerships 
between public safety, private industry, and academic 
institutions is strengthening the pace of and passion for 
delivering tangible solutions. Never before have there been so 
many people focused on communications technology R&D beneficial 
to our first responders.
    In closing, I would like to highlight the PSCR tagline, 
``pulling the future forward'', we are committed to reducing 
the time in which public safety will access these key 
technologies by accelerating the pace of research in the areas 
and expanding the number of research focused on the mission.
    By establishing measurement methods, enlisting new research 
recruits, and developing proof-of-concept technologies, all 
with traceable links to public safety, we will transform the 
future of emergency response, making the best possible use of 
time, talents, and resources.
    Thank you for the opportunity to testify. I would be 
pleased to answer any questions you may have.
    [The prepared statement of Mr. Orr follows:]
                  Prepared Statement of Dereck R. Orr
                             July 25, 2018
                              introduction
    Thank you Chairman Donovan, Ranking Member Payne, and Members of 
the subcommittee. I am Dereck Orr, division chief of the Public Safety 
Communications Research (PSCR) program, which is one of the primary 
Federal programs conducting research, development, testing, and 
evaluation for public safety communications technologies. The division 
is housed within the Communications Technology Laboratory (CTL) at the 
National Institute of Standards and Technology (NIST) in Boulder, 
Colorado. Thank you for inviting me to testify today about innovations 
in the field of emergency preparedness and specifically on emergency 
communications.
    Our Nation's first responders deal with emergencies every day. And 
whether it is a routine traffic stop, a multi-alarm fire, or a large-
scale event, such as Hurricanes Harvey and Sandy, or the attacks on 9/
11, the ability of first responders to communicate with each other, on-
scene as well as through incident command, remains one of the most 
critical determinants of success for emergency response.
    Since 2002, NIST's PSCR program has worked to drive innovation and 
advance public safety communication technologies through cutting-edge 
research and development (R&D). PSCR works directly with first 
responders and the solver community to address the public safety 
community's urgent need to access the new and improved technology that 
enhances the public safety community's ability to respond to 
emergencies. PSCR's mission is to research and develop the features 
identified by public safety itentities as critical so that these 
features will soon be available to enhance their performance. Drawing 
on critical requirements provided by public safety practitioners, such 
as the First Responder Network Authority (FirstNet), the PSCR program 
provides insight to wireline and wireless standards committees 
developing standards for voice, data, image, and video communications.
    Since June first of this year, approximately 235 miles southwest of 
the NIST labs in Boulder, a significant wildland fire has been burning. 
The fire spans almost 55,000 acres and is currently only 50 percent 
contained. This incident has required the deployment of almost 1,000 
personnel, as well as 24 engines, 7 helicopters, and 2 fixed-wing 
aircraft. This is a complex response requiring reliable communications 
and constant situational awareness. The primary means of communication 
for this response effort is Land Mobile Radio (LMR), a proven 
narrowband technology that is used for mission-critical voice 
communications; you might be familiar with LMR as ``push a button to 
talk'' technology. Almost all information, such as changes in fire 
behavior, personnel and asset location, status updates, and weather 
conditions, will be transmitted via these radios.
    Now, imagine a world in which future technology--for example, 
highly deployable drones with autonomous flight controls--serve as 
communications hubs, allowing for not only voice communications, but 
location-mapping, video analytics, and real-time weather updates.
    Imagine that all of this information could be easily transmitted to 
first responders' broadband devices, such as smartphones, tablets, and 
even heads-up displays. Putting this technology in the hands of first 
responders would help them assess emergency scenarios safely and 
smartly before sending in personnel. It would help them reduce harm to 
people and damage to property. It would help them avoid unnecessary 
injury or death.
    Congress did much to lay the groundwork for this vision in the 
Middle-Class Tax Relief and Job Creation Act of 2012, which, among 
other things, charged NIST with utilizing up to $300 million from the 
Public Safety Trust Fund to conduct research and assist with the 
development of standards, technologies, and applications to advance 
wireless public safety communications.\1\
---------------------------------------------------------------------------
    \1\ Public Law 112-96, Section 6303.
---------------------------------------------------------------------------
    At PSCR, we believe this future is achievable, and we are working 
to accelerate its arrival.
                          future technologies
    Getting cutting-edge technology into public safety community's 
hands for day-to-day operations can be a difficult task. For example, 
using a smartphone while wearing structural firefighting gloves is 
almost impossible. Having to aggregate and make sense of millions of 
pieces of information coming in from multiple sources, including from 
sensors, video cameras, and social media, while simultaneously 
responding to an active incident, is not effective. Many technology 
products designed for broader commercial markets do not provide 
solutions specific to the needs of the public safety community. Given 
this reality, research carried out at NIST can be nothing short of 
transformative, helping to focus the attention of product manufacturers 
and service providers on critical public safety research and 
development. I would like to describe for you a few of the ways in 
which PSCR is doing this.
    First, we conduct internal research at our laboratories, where PSCR 
serves as the objective technical advisor for critical public safety 
communications technologies. Over 45 division staff and an additional 
50 researchers from other NIST labs and divisions are researching and 
developing communications technologies and measurement standards across 
five key public safety research areas:
  <bullet> Integrating the Long-Term Evolution (LTE) technology that 
        powers most mobile phones with traditional first responder LMR 
        technology for the period of time that these two technologies 
        will coexist;
  <bullet> Making mission-critical voice capabilities available on LTE 
        broadband devices;
  <bullet> Enabling location-based services for personnel and assets, 
        especially inside of buildings;
  <bullet> Enhancing user-interfaces for accessing and transmitting 
        complex information; and
  <bullet> Promoting public safety analytics tools that will help the 
        public safety community make use of the large amounts of data 
        that will be available to them.
    Some of our most recent lab projects include:
  <bullet> Using a backpack outfitted with Light Detecting and Ranging 
        technology, otherwise known as LiDAR, which emits a pulsing 
        laser to quickly and easily map and develop three-dimensional 
        models of buildings for the creation of enhanced maps and 
        location tracking for response activities;
  <bullet> Developing a Virtual Reality (VR) Test Environment for 
        assessing which future user-interfaces will have the largest 
        improvement on public safety operations;
  <bullet> Creating mission-critical voice measurement methods that 
        will allow public safety and industry to compare LMR with LTE, 
        so as to determine when and if transition to LTE is possible 
        for voice communications; and
  <bullet> Working with industry partners to prototype small, self-
        contained LTE ``networks in a box'' that responders could be 
        rapidly deploy using drones to establish communications 
        anywhere.
    Second, PSCR puts substantial resources into promoting the 
development of these technologies externally, through the Public Safety 
Innovation Accelerator Program (PSIAP). The PSIAP is carried out 
primarily through grants, cooperative agreements and Open Innovation 
Prize Challenges. These PSIAP efforts give NIST access to experts and 
innovators from around the world, and greatly expand the number of 
researchers focusing on key public safety communications issues. In 
2017, PSCR awarded $38.5 million in grants and cooperative agreements 
to 33 recipients--including teams from New York University, Rutgers, 
the Atlantic City Police Department, and the State of New Jersey Office 
of Homeland Security and Preparedness.
    Through PSIAP, we are accelerating research in the areas of 
mission-critical voice, data analytics, location-based services and 
network resiliency. Thus far in fiscal year 2018, we've engaged PSIAP 
award recipients both with grants and Open Innovation Prize Challenges. 
To date, we have awarded $6.1 million in grants and cooperative 
agreements to 7 recipients for research into enhanced user interfaces. 
In addition, we anticipate that over $4 million in additional Federal 
funding opportunities for mission-critical voice and location-based 
services will be awarded by the end of this fiscal year.
    In 2018, PSCR has launched and completed its first two technology-
based prize challenges, with total prize amounts of $400,000. These 
challenges were focused on baselining the maximum flight time possible 
for a drone carrying a payload similar to our ``network-in-a-box'' 
prototype, and on using the Virtual Reality Test Environment to develop 
effective in-building navigation interfaces for future first-responder 
heads-up displays. Through these challenges, we have had the 
opportunity to engage with innovators from all walks of life (e.g., 
professionals, academics, and hobbyists), see companies and 
partnerships form, and witness people become passionate about using 
their skills and knowledge to help the public safety community even 
after the competitions have ended. I firmly believe that encouraging 
these open partnerships between public safety, private industry, and 
academic institutions is strengthening the pace of--and passion for--
delivering tangible solutions. Whereas just 2 years ago the PSCR 
footprint extended little beyond our laboratories in Colorado and 
Maryland, today, roughly 150 entities from around the world are engaged 
in bringing innovation to public safety. Never before has there been 
such focus on communications technology R&D benefiting first 
responders.
    Between 2013 and 2016, PSCR engaged hundreds of public safety, 
Government, and industry stakeholders through workshops and summits to 
publish targeted R&D roadmaps. PSCR leverages these roadmaps and 
continues to gather input from our diverse stakeholder base to develop 
our innovation strategy and program plans. We also work closely with 
our partners at FirstNet, the National Telecommunications and 
Information Administration (NTIA), the Department of Homeland Security 
(DHS), the Department of Justice (DOJ), and the Federal Communications 
Commission (FCC), to ensure effective coordination mechanisms are in 
place to support our shared public safety mission. These communities 
and partnerships are fundamental to the success of the program, 
because, as noted by an attendee at our Annual Public Safety 
Stakeholder Meeting, ``it may be the greatest technology in the world, 
but if it doesn't help first responders, they're not going to adopt 
it.'' We at PSCR are laser-focused on helping first responders.
    In closing, I'd like to highlight the PSCR tagline: ``Pulling the 
Future Forward.'' By statute, NIST's window within which it must 
obligate monies from the Public Safety Trust Fund will end in 2022, now 
just 4 years away. To make the best use of the resources provided to us 
within this time frame, we are making special efforts to focus our R&D 
and program plans by employing the following three criteria, which any 
PSCR initiative must satisfy: First, it must address an urgent and 
unmet need; second, it must not be redundant with what is happening in 
the private sector; and third, it must transform the public safety 
mission. This is our success framework.
    NIST is committed to reducing the time by which public safety will 
get access to these key technologies by accelerating the pace of 
research in these areas and expanding the number of researchers focused 
on the mission. By establishing measurement methods, enlisting new 
research recruits, and developing proof-of-concept methodologies, all 
with traceable links to public safety, we will transform the future of 
emergency response--making the best possible use of time, talents and 
resources.
    Thank you for the opportunity to testify about NIST's work 
regarding innovations in emergency preparedness technology. I will be 
pleased to answer any questions you may have.

    Mr. Donovan. Thank you, sir. The Chair now recognizes to 
Mr. Kelly for 5 minutes.

  STATEMENT OF JOHN V. KELLY, SENIOR OFFICIAL PERFORMING THE 
 DUTIES OF THE INSPECTOR GENERAL, OFFICE OF INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Kelly. Chairman Donovan, Ranking Member Payne, 
distinguished Members of the committee, thank you for inviting 
me here today, my testimony focuses on Office of Inspector 
General audits, assessing the efficiency and effectiveness of 
FEMA's information technology activities that support its 
multiple missions.
    Numerous OIG audits conducted since 2005 disclosed that 
FEMA maintains outdated IT systems and infrastructure. This 
hinders FEMA's ability to effectively carry out disaster 
response and recovery efforts. Long-standing deficiencies 
hamper FEMA's ability to effectively integrate internal systems 
to perform end-to-end mission functions, track and manage 
disaster-related funds, and share information with external 
emergency management partners.
    These deficiencies limit real-time coordination across 
disaster efforts as shown in 2017 and in many other years, FEMA 
regularly responds to multiple major disasters, as such, 
effective IT systems are essential for FEMA to successfully 
execute its mission. We attribute FEMA's IT deficiencies to 
ineffective IT management practices.
    FEMA lacks four key elements to carry out its mission. 
First, it lacks centralized planning, development and 
management of agency-wide IT resources. Second, a comprehensive 
IT strategic plan with clearly-defined goals and objectives 
that guide program office initiatives. Third, an approach to 
modernize its IT infrastructure and systems. Finally, a 
comprehensive understanding of existing IT resources and needs 
throughout FEMA.
    In addition, FEMA's chief information officer lacks 
centralized budget authority to provide guidance, and 
oversight, and establish a formal governance process that 
guides agency-wide IT decisions. Despite the importance of IT 
resources to FEMA's mission, our reports repeatedly identify 
problems with IT systems and infrastructure.
    After the four hurricanes devastated Florida in 2004, and 
after Hurricanes Katrina, Rita, and Wilma devastated the Gulf 
Coast in 2005, we reported that FEMA encountered challenges 
supporting response and recovery operations, establishing a 
strategic IT direction for system modernization and improving 
its logistic information systems.
    More recently, in 2011 and 2015, we reported that FEMA's 
outdated mission-central, mission-critical IT systems still 
could not fully support emergency mission operations. Our 
reports reiterated that a lack of integration among FEMA's IT 
systems hindered FEMA from successfully executing essential 
functions such as logistics management, financial management, 
and grant management.
    To address the IT system and management issues identified 
in our 2011 and 2015 audits, we made a number of 
recommendations. However, this past February, we issued a 
management alert, pointing out that FEMA had made limited 
progress improving its IT management, and has not taken steps 
to adequately address our recommendations.
    Many of the issues we identified in our reports, even those 
disclosed in our mid-2000 reports, remain unchanged, and 
adversely impact day-to-day operations and mission readiness. 
The management alert highlighted that due to competing 
priorities, FEMA's CIO removed funding and staff resources 
needed to effectively address our recommendations.
    Given the importance of IT resources to FEMA successfully 
executing its mission, that decision was shortsighted. In May, 
we initiated a comprehensive audit regarding FEMA's IT 
management approach. We expect to issue that report in early 
2019.
    In summary, IT systems play a vital role in supporting 
FEMA's response and recovery efforts. Slow progress in 
addressing long-standing IT issues hampers disaster response 
efforts and results in wasted money. Having reliable and 
efficient IT systems and infrastructure is critical to support 
disasters, especially given that Congress appropriates on 
average more than $10 billion a year for FEMA's disaster relief 
fund.
    To be good stewards of tax dollars, FEMA needs strong IT 
leadership direction to finally overcome its IT management. Mr. 
Chairman, this concludes my testimony. I would be happy to 
answer questions from you or other Members of the subcommittee.
    [The prepared statement of Mr. Kelly follows:]
                  Prepared Statement of John V. Kelly
                             July 25, 2018
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee, thank you for inviting me here today to discuss 
information technology (IT) and management practices at the Federal 
Emergency Management Agency (FEMA). My testimony today will focus on 
the Department of Homeland Security (DHS) Office of Inspector General's 
(OIG) work to assess the efficiency and effectiveness of FEMA's IT in 
supporting mission operations.
    Numerous OIG audits conducted since 2005 have disclosed that FEMA's 
outdated IT systems and infrastructure did not enable FEMA personnel to 
effectively carry out disaster response and recovery efforts. 
Significant long-standing deficiencies continue to hamper emergency 
support operations in the following areas:
  <bullet> Inability to integrate FEMA's internal systems to perform 
        end-to-end mission functions;
  <bullet> Inability to track and manage disaster-related funds 
        effectively;
  <bullet> Inability to share information with external emergency 
        management partners; and
  <bullet> Limited real-time awareness or coordination across disaster 
        response efforts.
    We attribute these deficiencies to ineffective FEMA IT management 
practices.
    Principally, FEMA lacks key elements needed to carry out 
centralized planning, development, and management of agency-wide IT, 
including:
  <bullet> A comprehensive IT strategic plan with clearly-defined goals 
        and objectives to guide program office initiatives;
  <bullet> A modernization approach to modernize its IT infrastructure 
        and systems;
  <bullet> Comprehensive understanding of existing IT resources and 
        needs throughout FEMA;
  <bullet> Centralized budget authority for the FEMA chief information 
        officer (CIO) to provide guidance and oversight; and
  <bullet> An established, formal governance process to guide agency-
        wide IT decisions.
    These challenges have resulted in considerable wasted resources as 
system users conducted time-consuming, manual workarounds and ad-hoc 
processes.
    Such inefficiencies caused delays and prevented FEMA from being 
able to quickly scale up and sustain the increased workloads and 
information sharing required to respond to major disasters. Until FEMA 
provides the IT systems and capabilities needed to meet the demands 
posed by emergency management, timely response and recovery from 
disasters will be hindered, increasing the risk of delays in providing 
disaster assistance and grants.
                               background
    FEMA is the Federal coordinator to prepare for, prevent, respond 
to, and recover from domestic disasters and emergencies. FEMA is 
responsible for saving lives, protecting property, and protecting 
public health and safety in a natural disaster, act of terrorism, or 
other man-made disaster. To support its mission, FEMA had a budget of 
approximately $15.5 billion for fiscal year 2018. This represented 22 
percent of DHS's overall budget of more than $70 billion.
    Within FEMA, the Office of the Chief Information Officer (OCIO) is 
responsible for providing the critical IT infrastructure and systems to 
support the agency's response and recovery missions. FEMA has over 90 
operational systems used to provide support across multiple programs. 
For example, FEMA personnel rely on the following mission-critical 
systems to accomplish its mission:
  <bullet> Logistics management systems such as the Logistics Supply 
        Chain Management System (LSCMS) and the Logistics Information 
        Management System (LIMS III);
  <bullet> Response and recovery systems such as the National Emergency 
        Management Information System (NEMIS), the Emergency Management 
        Mission Integrated Environment (EMMIE), and the web-based 
        Emergency Operations Center (WebEOC);
  <bullet> Mitigation and preparedness systems such as the Non-Disaster 
        Grants Management System (ND-Grants) and Mitigation Electronic 
        Grants (eGrants); and
  <bullet> Mission support systems such as the Web Integrated Financial 
        Management Information System (WebIFMIS).
    Despite the crucial role of technology, FEMA's IT systems 
historically have not fully met mission needs. Major disasters over the 
past number of years exposed numerous limitations in FEMA's IT 
infrastructure and system capabilities. We have conducted a series of 
audits from September 2005 to the present addressing FEMA's use of IT 
to support its mission operations.
      long-standing it deficiencies impede fema mission operations
    Despite the importance of IT for FEMA's mission, we have identified 
numerous problems with FEMA's IT systems and infrastructure. As early 
as September 2005, we reported that system improvements and additional 
IT user support were needed to better support response and recovery 
operations.\1\ In December 2006, we identified significant challenges 
to FEMA establishing strategic IT direction and defining the 
requirements for system modernization.\2\ Further, in May 2008, we 
reported that FEMA's logistics information management systems did not 
provide complete asset visibility of disaster goods, such as 
commodities and property, from initial shipment to final distribution 
in disaster areas.\3\
---------------------------------------------------------------------------
    \1\ Emergency Preparedness and Response Could Better Integrate 
Information Technology with Incident Response and Recovery (OIG-05-36).
    \2\ FEMA's Progress in Addressing Information Technology Management 
Weaknesses (OIG-07-17).
    \3\ Logistics Information Systems Need to Be Strengthened at the 
Federal Emergency Management Agency (OIG-08-60).
---------------------------------------------------------------------------
                       system integration issues
    More recently, our 2011 and 2015 audit reports on FEMA's IT 
disclosed that FEMA's outdated mission-critical systems could not fully 
support emergency mission operations.\4\ The audits concluded a lack of 
integration among FEMA's IT systems was impeding a number of FEMA's 
essential operational functions, including logistics management, asset 
management, and financial management. Examples of the lack of 
integration among the various types of systems include:
---------------------------------------------------------------------------
    \4\ Federal Emergency Management Agency Faces Challenges in 
Modernizing Information Technology (OIG-11-69); and FEMA Faces 
Challenges in Managing Information Technology (OIG-16-10).
---------------------------------------------------------------------------
  <bullet> Logistics Management Systems: FEMA's multiple logistics 
        systems were not integrated and could not support its end-to-
        end supply chain process. FEMA had not integrated the systems 
        used in its property inventory and supply chain processes, 
        which resulted in fragmentation of data across multiple 
        logistics systems. Specifically, the property management 
        system, LIMS III, and the supply chain management system, 
        LSCMS, were not integrated. Most commodities, such as IT 
        equipment and furniture, were tracked in both systems, with 
        staff performing the same functions in each system. Also, the 
        information in LIMS III was not timely or accurate because data 
        was not automatically shared between LIMS III and LSCMS as 
        commodities were shipped. Given this, users had to manually 
        enter data in LIMS III to close out orders. Moreover, because 
        the shipment did not show up in LIMS III until FEMA personnel 
        received the shipment, personnel manually updated LIMS III as 
        shipments were received. Consequently, the processes for 
        shipping and receiving was labor-intensive and redundant.
    As mandated by Congress in 2005, FEMA developed LSCMS to enable a 
        timely and effective response to disasters and real-time 
        visibility over shipments of emergency supplies.\5\ We reported 
        in 2014 that FEMA's supply chain management system may not be 
        effective during a catastrophic disaster. We found that FEMA 
        did not properly plan and document acquisition requirements and 
        may not ever meet critical performance requirements, which can 
        impair its ability to efficiently and effectively aid survivors 
        of catastrophic disasters. Our 2014 report contained 11 
        recommendations, two of which remain open.\6\
---------------------------------------------------------------------------
    \5\ FEMA's Logistics Supply Chain Management System May Not Be 
Effective During a Catastrophic Disaster (OIG-14-151).
    \6\ Additionally, we have an on-going review examining to what 
extent FEMA managed and distributed commodities in the Commonwealth of 
Puerto Rico in response to Hurricanes Maria and Irma.
---------------------------------------------------------------------------
  <bullet> Personnel and Property Management Systems.--FEMA had not 
        integrated systems to support personnel and property management 
        functions needed to assign IT equipment at disaster sites. As 
        we initially reported in 2005, FEMA's personnel deployment 
        system and its property management system, LIMS III, did not 
        support effective or efficient coordination of deployment 
        operations.\7\ Given the continuation of this issue, FEMA 
        employees completed a number of steps to manually check in and 
        obtain property, such as IT equipment, at a disaster site. We 
        concluded that until an effective link between the personnel 
        and property management systems was established, FEMA faced 
        additional work due to inefficient management of property and 
        personnel.
---------------------------------------------------------------------------
    \7\ Emergency Preparedness and Response Could Better Integrate 
Information Technology with Incident Response and Recovery (OIG-05-36).
---------------------------------------------------------------------------
  <bullet> Financial and Acquisition Management Systems.--FEMA's 
        ability to track and manage disaster-related funds was hindered 
        by the fact that the financial system and the acquisitions 
        system were not integrated. Combined, these systems handled 80 
        percent of budget disaster funds. However, each system operated 
        on a different technical platform, with financial data updates 
        sent to each system at different times. As a result, the two 
        systems were operating without synchronized data, and field 
        office employees manually tracked and reconciled funds that 
        were allocated across different disaster activities. 
        Additionally, manual steps were required to deobligate excess 
        funds after requisitions were completed. Although this step 
        should be done automatically, personnel performed manual 
        deobligations that totaled $21 million for fiscal year 2020 
        disaster funds.
  <bullet> Grants Management Systems.--A lack of integration was most 
        notable in FEMA's nine different systems used to support the 
        agency's grant programs, each developed independently to 
        support a specific type of grant. These systems did not enable 
        Grant Managers to monitor FEMA activity across grant programs, 
        as managers had to access one system at a time to search for 
        open grants and compile the results. One region created its own 
        tool for tracking information across FEMA's various grant 
        systems. The numerous unintegrated grant systems also created 
        complexity for grant recipients, such as States, who need to 
        access multiple systems to process grant awards and request 
        payment.
  <bullet> Grants/Financial Management Systems Interface.--FEMA 
        personnel were also unable to detect duplicate grant 
        submissions, due to the lack of integration between the grant 
        systems and the agency's main financial system, WebIFMIS. FEMA 
        personnel manually entered information from the grant system 
        into WebIFMIS at certain stages in the grant process. 
        Similarly, the preparedness grant system, ND-Grants, did not 
        fully interface with WebIFMIS, resulting in the need to 
        manually enter information to complete and close out a grant in 
        both ND-Grants and WebIFMIS. Given these limitations, according 
        to regional staff, if a State were to suffer multiple 
        disasters, one person could apply for assistance for each of 
        the different disasters and not be identified. Further, the 
        inability of enterprise systems to accurately transmit grant 
        information between certain systems can result in grantees 
        receiving incorrect notices that they are not in compliance 
        with grant requirements, which has resulted in delays in making 
        grant funds available.
  <bullet> Collaboration Systems.--FEMA's primary watch and response 
        collaboration system, WebEOC, was not integrated with agency 
        systems used to request immediate short-term emergency response 
        assistance. Instead, FEMA personnel entered information into 
        WebEOC, which processes and tracks the mission assignment 
        requests, and entered the same information into the financial 
        approval system used to process mission assignments, and 
        WebIFMIS. Likewise, the FEMA WebEOC was not integrated with the 
        WebEOC used by State emergency operation centers, resulting in 
        an inefficient manual process to update WebEOC with information 
        from the State centers about on-going disasters. Specifically, 
        a region had to send FEMA staff to a State emergency operation 
        center to review the State's information. If a State's request 
        for assistance was submitted in the State system, a FEMA staff 
        member printed it out and manually entered the same data into 
        the FEMA WebEOC.
                 lack of required systems functionality
    The lack of system integration as well as other system deficiencies 
resulted in personnel engaging in inefficient, time-consuming business 
practices on a daily basis. For example:
  <bullet> One region created 30 Excel spreadsheets to have the 
        information needed to report on disaster spending by States in 
        response to Congressional requests. In addition, field 
        personnel created their own tools, such as spreadsheets and 
        databases, to fill the gaps from enterprise system limitations.
  <bullet> FEMA personnel could not simply retrieve a standard report 
        from NEMIS that contained a grant applicant's entire record. 
        Instead, grant personnel accessed numerous different screens in 
        NEMIS and compile the results.
  <bullet> Reports in EMMIE could only be prepared for one disaster at 
        a time. To obtain information across several disasters, 
        personnel accessed and retrieved a report for each individual 
        disaster and manually combined the data into one report. In 
        addition, one grant specialist said that none of FEMA's non-
        disaster grants systems were able to generate reports listing 
        open, closed, or expired grants collectively.
  <bullet> FEMA did not have an electronic capability for the States, 
        its foremost external partners, to use when requesting 
        assistance during disasters. Instead, to request Federal 
        assistance from FEMA, States used a paper Action Request Form. 
        After the form was faxed, FEMA personnel entered request 
        information into a tracking system that was intended to track 
        the request through disposition.
  <bullet> Although NEMIS eGrants was supposed to be an electronic 
        system of records, it did not have a closeout module. Without a 
        closeout capability, FEMA personnel relied on paper forms and 
        manual data entry to finalize grants in the system.
  <bullet> Officials in FEMA's Mitigation Directorate said they relied 
        on a paper-based application process for the Hazard Mitigation 
        Grant Program. As a result, according to FEMA's Mitigation 
        office, an average of 100 to 200 paper applications received 
        during each disaster, had to be manually entered into the 
        system.
     it deficiencies attributable to fema it management challenges
    We attributed FEMA's long-standing system deficiencies to numerous 
challenges involving insufficient IT planning and governance agency-
wide.
  <bullet> Planning.--In 2011, we reported that FEMA had not performed 
        the necessary planning activities to guide its IT modernization 
        efforts.\8\ As a result of our follow-up audit in 2015, we 
        reported that FEMA had developed numerous IT planning documents 
        but had not yet executed them, in part because of the frequent 
        turnover in the CIO position within the agency. FEMA had six 
        different individuals, either appointed or acting, serving in 
        the CIO position over the previous 10 years. For this time 
        period, the average tenure of the FEMA CIO was about 15 months. 
        Without a comprehensive, agency-wide IT strategic plan, the 
        OCIO lacked a clear end-state vision to coordinate and 
        prioritize modernization initiatives across program offices.
---------------------------------------------------------------------------
    \8\ Federal Emergency Management Agency Faces Challenges in 
Modernizing Information Technology (OIG-11-69).
---------------------------------------------------------------------------
    Without such a plan, the OCIO and its customers focused on 
        immediate needs, rather than addressing the long-term 
        modernization efforts necessary to improve out-dated, legacy IT 
        infrastructure and systems.
  <bullet> Architecture.--FEMA had not completed its efforts to develop 
        a complete agency-wide architecture that can be used for 
        decision making to guide and constrain investments and to 
        provide a blueprint for IT modernization. Without a 
        comprehensive baseline architecture, the OCIO was hindered in 
        guiding IT investments toward a standardized and integrated 
        environment. The OCIO had not yet completed the baseline 
        architecture due to staffing and funding shortages.
  <bullet> Systems Inventory.--The FEMA OCIO did not have an 
        understanding of existing IT resources and needs throughout 
        FEMA. Specifically, FEMA did not have a complete inventory of 
        its systems to support disasters. Instead, numerous separate 
        inventories were maintained throughout the agency and were not 
        shared. OCIO personnel estimated that the number of FEMA's 
        systems across all regional offices ranges from 90 to as high 
        as 700.
  <bullet> Decentralized IT Funding.--The manner in which IT programs 
        receive direct funding for operations each year contributed to 
        decentralized IT development practices. Specifically, FEMA 
        program and field offices developed IT systems independent of 
        the OCIO without oversight or guidance. Developing new systems 
        on the network without OCIO involvement created concerns as to 
        whether systems would operate effectively, meet security 
        standards, or contain redundant IT functionality already in 
        place. For example, one directorate spent approximately $7.5 
        million developing an IT system which was ultimately unable to 
        meet FEMA's security requirements. Although the OCIO had 
        developed a standard systems life-cycle practice to be used for 
        all IT projects, the process has not yet been institutionalized 
        throughout FEMA.
    The decentralization of IT funds and development also has been a 
        major obstacle to effective management of FEMA's IT 
        environment. During fiscal year 2010, FEMA spent $391 million 
        for agency-wide IT needs; however, OCIO's spending of $113 
        million accounted for only 29 percent of that total IT 
        spending. The program offices spent the remaining $278 million, 
        comprising the majority of the agency's IT-related spending. In 
        fiscal year 2018, OCIO spending was $164 million, comprising 40 
        percent of the agency's total IT budget of $396 million.
    Efforts to modernize and integrate the agency's critical mission 
        support systems had been put on hold due to Department-wide 
        consolidation plans, and lack of funding. For example, FEMA was 
        not able to plan or fund asset management or financial systems 
        upgrades while DHS officials were identifying a Department-wide 
        asset management solution. Also, funding for critical 
        enhancements and upgrades to logistics management systems and 
        financial systems had decreased over the preceding years. FEMA 
        was also hamstrung by the increasing costs of software upgrades 
        for its 20-year-old technologies.
  <bullet> Agency-wide IT Governance.--FEMA struggled to implement 
        effective agency-wide IT governance. FEMA instituted an IT 
        Governance Board (ITGB) in February 2012; however, the board's 
        functioning proved ineffective and it eventually stopped 
        holding meetings. In addition, ITGB struggled to make decisions 
        on FEMA-wide IT initiatives. For example, the Consolidated 
        Appropriations Act, 2012, allocated $13.662 million for FEMA to 
        modernize IT systems.\9\ One of the main initiatives undertaken 
        by the ITGB was to decide which projects should receive this 
        funding. However, the process ITGB implemented to solicit, 
        evaluate, and select candidate IT projects was unsuccessful. 
        ITGB did not use the results obtained from this process because 
        members did not concur with the scoring results.
---------------------------------------------------------------------------
    \9\ Public Law 112-74.
---------------------------------------------------------------------------
  <bullet> CIO Authority.--FEMA had not implemented effective agency-
        wide IT governance, in part, because the CIO still did not have 
        sufficient authority to effectively lead the agency's 
        decentralized IT environment. As we reported in 2011, the 
        OCIO's budget still accounted for only one-third of the 
        agency's total IT spending, with the FEMA program offices 
        accounting for the remaining two-thirds. As previously stated, 
        the OCIO's fiscal year 2014 IT spending was approximately $170 
        million of $450 million for the entire agency.
                            recommendations
    To address the IT system and management issues identified in our 
2011 reports, we made a number of recommendations to the Chief 
Information Officer in the following areas:
  <bullet> Develop a comprehensive IT strategic plan,
  <bullet> Complete and implement a FEMA enterprise architecture,
  <bullet> Establish a comprehensive IT systems inventory,
  <bullet> Establish an agency-wide IT budget planning process and 
        obtain agency-wide IT investment review authority, and
  <bullet> Establish a consolidated modernization approach for FEMA's 
        mission-critical IT systems.
    We closed these 2011 recommendations based on FEMA's quarterly 
reports to us on corrective actions taken.
    Further, in 2015, we recommended the FEMA CIO finalize key planning 
documents related to IT modernization and execute against those 
planning documents, fully implement an IT governance board, improve 
integration and functionality of existing systems, and implement 
agency-wide acquisition, development, and operation and maintenance 
standards. Of the 5 recommendations from the 2015 report, 4 remain 
open. We closed 1 recommendation regarding implementing an IT 
governance board based on documentation that FEMA provided.
     follow-on audits to determine progress in fema's it management
    As we periodically do, we conducted a verification review in 
December 2017 to assess FEMA's efforts to address our 2015 report 
recommendations. Congressional interest, as well as our analysis of the 
compliance updates, indicated a need for further review to determine 
the adequacy of FEMA's efforts to resolve our open recommendations. 
Since the publication of our report in 2015, FEMA has provided 6 
compliance updates on its efforts to address our 5 report 
recommendations.
    However, we found during our January and February 2018 review 
fieldwork that FEMA had made limited progress in improving its IT 
management and had not taken steps to adequately address our 
recommendations. Many of the issues we reported based on our prior 
audits dating back to 2005 remained unchanged, adversely impacting day-
to-day operations and mission readiness. Especially disconcerting, our 
recent work revealed that the justification that FEMA provided to 
support our closing the recommendation to implement an IT governance 
board was misleading and FEMA had not truly met the intent of the 
recommendation.
    Given these deficiencies, we suspended our verification review and 
issued a Management Alert.\10\ The Management Alert indicated that, 
given competing priorities, the CIO had removed the funding and staff 
resources needed to effectively address our report recommendations. The 
Management Alert also stated we would initiate a more comprehensive 
audit regarding FEMA's IT management approach, with the objectives of 
assessing the extent to which FEMA has implemented IT management 
practices mandated for Federal agencies, and identifying challenges to 
ensuring FEMA's IT systems adequately support disaster response mission 
operations. We began our current audit work in May 2018.
---------------------------------------------------------------------------
    \10\ Management Alert--Inadequate Progress in Addressing Open 
Recommendations from our 2015 Report, ``FEMA Faces Challenges in 
Managing Information Technology'' (OIG-18-54).
---------------------------------------------------------------------------
    As part of our on-going audit, we seek to identify and assess any 
challenges, impediments, or constraints associated with the ability of 
FEMA's IT systems to adequately support day-to-day mission operations. 
We are assessing FEMA's approaches and outcomes related to key IT 
management practices, including IT strategic planning, governance, 
budgeting, and acquisitions. Last, we are following up on specific 
issues identified in our previous reports on FEMA's IT management. To 
date, the audit team has conducted numerous interviews with FEMA 
personnel across all program offices. The team has also traveled to 
FEMA's field offices in Houston, TX and Austin, TX to learn about 
specific IT-related challenges that FEMA personnel experienced during 
their response and recovery efforts for Hurricane Harvey. We expect to 
issue our final audit report early in 2019.
                               conclusion
    IT systems play a vital role in supporting FEMA's response and 
recovery efforts. Slow progress in addressing long-standing IT issues 
can hamper disaster response efforts and result in wasted money, 
continued ineffective systems, and inefficient processing. Having 
reliable and efficient IT systems and infrastructure is critical to 
support disasters that typically occur from year-to-year, as well as 
the increased disaster relief efforts in the wake of the 2017 hurricane 
season. To date, Congress has appropriated about $49.5 billion to 
FEMA's Disaster Relief Fund for these recovery efforts.
    Strong IT leadership direction is needed to stop this pattern and 
ensure corrective actions to overcome the IT management challenges once 
and for all. Improvement is essential--for the sake of the taxpayer, 
FEMA IT users, first responders, and disaster victims. Our on-going 
audit is aimed at emphasizing this need for positive change. We will 
advise you on the results of our on-going work once completed.
    Mr. Chairman, this concludes my testimony. I am happy to answer any 
questions you or other Members of the subcommittee may have.

    Mr. Donovan. Thank you, Mr. Kelly. The Chair now recognizes 
the gentleman from New Jersey, Mr. Payne, in any opening 
statement that he may have.
    Mr. Payne. Thank you, Mr. Chairman. I appreciate your 
indulgence and welcome the witness, and, you know, as usual, I 
would like to thank you for holding this hearing to address the 
technology and innovation in disaster preparedness. Damage from 
the 27 disasters broke records and made last year the costliest 
year of disaster-related damage in American history.
    I hope to hear from--well, I did hear from the witnesses, 
and maybe I didn't. I mean, about how you are taking the 
lessons learned from the 2017 hurricane season and investing in 
technologies that will be pushed out to communities. Now more 
than ever, communities are facing mounting threats from extreme 
weather patterns.
    We are seeing where climate change is having a direct 
impact on the strength and frequency of storms, as such we must 
all take measures to ensure that life-saving preparedness 
technologies are developed and pushed out to the Federal, 
State, and local leaders. For these reasons, I am dismayed that 
the FEMA 2018-2022 strategic plan failed to mention climate 
change, and given the record-breaking year we saw for natural 
disasters.
    Additionally, I was disappointed when FEMA's 2017 hurricane 
season after-action report failed to mention climate change, 
when we saw Hurricane Harvey produce a historic 60 inches in 
rainfall and back-to-back Hurricanes Irma and Maria devastated 
the Caribbean. I hope to hear from the witnesses today about 
how you are using climate change research to push for advances 
in preparedness technologies.
    It is not good to have conversations about technologies 
here in Washington, DC when people on the ground do not have 
access to those technologies. FEMA noted many of their 
shortcomings in response to Hurricane Maria in the 2017 
hurricane season after-action report. One such shortcoming that 
needs to be addressed today is how to get these technologies to 
the people that need them the most.
    That way, well before a Category IV or V storm hits 
communities, they will have been made aware of the helpful 
preparedness technologies that are available and that we 
discuss here in Washington, DC. I am particularly interested in 
hearing from Deputy Inspector General Kelly about past audits 
in FEMA's technologies that the Office of Inspector General has 
performed throughout the years.
    I would like to thank the witnesses for participating in 
today's hearing, and I was glad to hear their opening 
statements, and I look forward to hearing from all of you about 
the progress that has been made with technologies and 
preparedness. With that, Mr. Chairman, I will yield back the 
balance of my time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                             July 25, 2018
    Damage from the 2017 natural disasters broke records and made last 
year the costliest year for disaster-related damage in American 
history. I hope to hear from the witnesses today about how you are 
taking lessons learned from the 2017 hurricane season and investing in 
technologies that will be pushed out to communities.
    Now, more than ever, communities are facing mounting threats from 
extreme weather patterns. We are seeing where climate change is having 
a direct impact on the strength and frequency of storms. As such, we 
must all take measures to ensure that life-saving preparedness 
technologies are being developed and pushed out to Federal, State, and 
local leaders.
    For these reasons, I was dismayed that FEMA's 2018-2022 Strategic 
Plan failed to mention climate change, given the record-breaking year 
we saw for natural disasters.
    Additionally, I was disappointed when FEMA's 2017 Hurricane Season 
After-Action Report failed to mention climate change, when we saw 
Hurricane Harvey produce a historic 60 inches in rainfall and back-to-
back Hurricanes Irma and Maria devastated the Caribbean.
    I hope to hear from the witnesses today about how you are using 
climate change research to push for advances in preparedness 
technologies.
    It is not any good to have conversations about technologies here in 
Washington, DC, when people on the ground do not have access to those 
technologies.
    FEMA noted many of their shortcomings in response to Hurricane 
Maria in the 2017 Hurricane Season After-Action Report. One such 
shortcoming that needs to be addressed today is how to get these 
technologies to the people that need them the most.
    That way, well before a Category IV or V storm hits a community, 
they will have been made aware of helpful preparedness technologies.
    I am particularly interested in hearing from Inspector General 
Kelly about past audits in FEMA's technologies that the Office of 
Inspector General has performed throughout the years.
    I would like to thank the witness for participating in today's 
hearing. I look forward to hearing from all of you about the progress 
that has been made with technologies in preparedness.

    Mr. Donovan. Thank you, Ranking Member. I will recognize 
myself for 5 minutes for questioning. But first, I would like 
to address the after-action report that you are talking about 
and knowing that we are talking here about technology and 
preparedness the purpose of that. What was some of the findings 
that you think that you--were needed or could be needed in the 
future after analyzing what has happened in the 2017 season?
    Is there technology to help us prepare better? Is there 
something that Congress needs to do to help you, to help our 
Nation to be prepared better for the upcoming seasons and the 
seasons going forward? I would also like to ask you as a second 
question about artificial intelligence and the use of 
technology and artificial intelligence.
    I know some of the mapping and modeling may have been 
deficient in the past, and now with new innovative ways of us 
predicting and preparing, is any of that technology useful to 
you in your efforts?
    Mr. Kaniewski. Thank you, Mr. Chairman. Yes, as was 
referenced, we did learn a lot of lessons from the 2017 
hurricane season. The 50-page after-action report is a very 
blunt self-assessment about what, some of things we did right 
and some of the things that we need to improve in the future.
    As I mentioned before, we think in the emergency management 
world it is very important to be transparent about those 
lessons. So, I am happy to hit a couple of those lessons 
specifically for you, logistics, logistics bedeviled us both in 
the early, the immediate aftermath, by getting commodities, 
supplies, and equipment particular to Puerto Rico and Virgin 
Islands during Hurricane Maria.
    Shipping everything by sea and by air was a huge challenge, 
it wasn't something that FEMA had faced before. Normally, we 
can truck in supplies even across State lines, it's not a 
problem. But the logistics network and the supply chains 
associated with that, not just at FEMA, and not just emergency 
management agencies, but the private sector.
    That's going to get to my second point which is critical 
infrastructure. Critical infrastructure sectors are absolutely 
essential to provide those services that you and I need as 
Americans, that disaster survivors need as Americans immediate 
after--in the immediate aftermath of a disaster.
    Those supply chains, those logistics, and the ability for 
those private-sector companies to get the power back on, or 
water, or the hospitals back on-line, a lot of those 
responsibilities fall within the private sector. We at FEMA 
acknowledge now that we need to be more supportive of the 
private sector, No. 1, and No. 2, more integrated with.
    Then No. 3, let me mention staffing. I think I am quoting 
Administrator Long and one of his previous Congressional 
testimonies where he said, ``By the time Maria hit, we were 
tapped out.'' We were--we simply did not have the number of 
personnel necessary to effectively respond to three concurrent 
catastrophic complex catastrophes last season, but it was 
something like we had not seen before.
    But in the future, we realize we do need to be prepared for 
these things. So on staffing, we made great use of the DHS 
Surge Capacity Force for the first time, where we leveraged 
thousands of personnel not only from DHS, but throughout the 
entire Federal Government. I think moving forward, we could 
leverage technology for that as to get the word out quickly 
about what specifically we need, what type of critical skills 
we could use.
    In the case of Maria, we needed bilingual staff. So if you 
were a Spanish speaker, we wanted you, but it might have been 
hard to reach those particular individuals throughout the 
entire Federal Government, other than doing what you can 
imagine we did, which is send out e-mails saying, if you speak 
Spanish, and if you want to serve your country, and deploy to 
Puerto Rico and the Virgin Islands, we want you. Want you to 
help us.
    Ironically, one last mention. Ironically, technology was a 
hindrance for us in Puerto Rico, because remember without power 
and communications, we couldn't use our traditional--method of 
registering disaster survivors for aid with an iPad or other 
electronic devices like a computer.
    We had to go back the old way, we had to get paper out of 
the store rooms and put them on clipboards and deploy 
volunteers and members of the Surge Capacity Force to go door-
to-door to register people for aid with pen and paper. That 
ironically as it sounds was an innovation, going back to paper, 
because we did not have a functioning communication system that 
would enable us to connect to the internet in Puerto Rico and 
the Virgin Islands.
    Mr. Donovan. I only have a few moments left, just for some 
of our colleagues, Don and I come from the northeast, he from 
New Jersey and me from New York, so we don't experience things 
like tornadoes that are less predictable. Hurricanes we see 
days in advance, we don't know what path they are going to 
take, but we kind-of know where the hurricane territories are. 
So, knowing that allies but--and I visited Puerto Rico 2 weeks 
after the storm and then 3 months after the devastation.
    I saw the remarkable recovery was going to take a long 
time, but saw the remarkable devastation 2 weeks after the 
storm had hit. Knowing that Spanish-speaking communities are in 
this pathway again, knowing that places with poor 
infrastructure, my understanding is a lot of the infrastructure 
in places like Puerto Rico were built in the 1950's.
    Since we are talking about preparedness, are we taking any 
measures to be prepared for the nine--2018 season and 2019 
season, the 2020 season? Again, my question will be to all you, 
because I think with three of us you probably ask a second 
round of questions, is what can we do, we all lawmakers, you 
are the boots on the ground, we need to assist you, what is it 
that Congress could do to help you make your job more efficient 
and more effective?
    Mr. Kaniewski. Well, Mr. Chairman, first on preparedness, I 
was so glad to see the title of this hearing was build a 
culture of preparedness, and the fact that that aligns with our 
goal No. 1 of our strategic plan shows our shared interest in 
this issue. I think now is the right time to have a 
conversation with the American public to say, ``Listen, FEMA is 
not a first responder.''
    FEMA cannot be there in the minutes, hours, and sometimes 
days following a disaster. We are asking you, the American 
public, to take responsibility and be prepared, be prepared now 
in the traditional ways that we have talked about for many 
years. Listen, ready.gov, and other ready initiatives have been 
around since the DHS's inception, it was a result of 09/11 
where we said citizen preparedness is important.
    But what we feel that FEMA is we need to take this is step 
further. No. 1, we have to have open and honest conversations 
about this, that FEMA is not a first responder, that you need 
to be prepared. But we--at the same time, we can't scare the 
American public and just tell the American public you need to 
be prepared without providing specific guidance.
    So, if you go to ready.gov you will see particular 
protective action guidance for a number of different scenarios. 
Ask these kind of questions, and I often do this in my public 
speaking engagements, is to ask the audience how many know CPR 
or how many know how to shut off the water or gas to your home? 
How many know just to check on your neighbors, especially those 
neighbors that have special needs? Very few hands go up.
    Now second, something, this might seem kind-of strange 
coming from someone at FEMA, but we as Americans need to be 
better financially prepared. Did you know that 44 percent of 
Americans can't put their hands on $400 that they might need in 
an emergency? Forty-four percent, nearly half of Americans 
don't have that much cash on hand.
    We need to make sure that Americans are financially 
prepared, and that includes insurance and of course I have a 
self-interest here on flood insurance. I think every home 
should have flood insurance because every home can flood. Do 
not pay attention to the line about 1-in-100-year flood-plain. 
Do not pay attention to your--frankly to those that advise you, 
you don't need flood insurance because you are outside. We are 
partnering with nontraditional audiences like the realtors to 
say ``We need you to tell your clients that just because they 
are not in a flood zone doesn't mean they don't need flood 
insurance.''
    It shouldn't be, ``Don't worry, new homeowner, you are 
going to save some money each month because you don't have to 
have flood insurance. You are not required to have that by 
law.'' The conversation should be any home can flood. Again, 
some self-interest here, floodsmart.gov which by the way was 
recently updated and a great example of how FEMA is embracing 
technology, if you haven't seen floodsmart.gov recently, I 
encourage you to do so. But the best time to buy is when it is 
dry.
    It takes 30 days for a policy to take effect. I hope every 
American knows that they need insurance. It is not just flood 
insurance by the way. Many Americans are sorely underinsured. 
As your family grows, as you add new furniture or even an 
addition on your home, make sure that your insurance is keeping 
up with your life because if you are underinsured and you lose 
everything, you are going to have a very, very hard time 
recovering.
    Mr. Donovan. Thank you, sir. I remember when New York City 
after the 2003 blackout started civilian emergency response 
teams teaching civilians to do things that were not dangerous 
but--so we didn't have to use first responders to direct 
traffic and things like that.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    I think you made some very good points with respect to FEMA 
not being a first responder. But in anticipation of your 
resources being needed, I think there are a lot of areas where 
you could have done better. Knowing that this situation, this 
circumstance was around the corner, I don't understand how in 
some areas we plan for the worst and then other areas, we just 
kind-of ``Well, we know something is coming, but we didn't 
expect it to be that big.'' I mean, I would think in these 
circumstances, you try to plan for the worst.
    I think that almost every instance should be looked at as a 
Category IV or V and then you ramp down as you don't need as 
much resource. So, that would just be something I would point 
out. One of the points that really stuck in my mind was when 
just after the circumstance, we were in the middle of it and 
there just happen to be an article that former Secretary 
Clinton was quoted on, and she said, ``Well, I would have had 
the ship Comfort ready.'' Then that is when the Government got 
involved and got the ship ready which just took another 2 weeks 
to get ready and ramp up.
    Why wouldn't you have that within 2 or 3 days of being 
ready on the circumstance? Secretary Clinton, she is retired 
now but she just mentions it in an article and then that was 
the impetus of it being used, but that is for another day.
    Now, let us see. Administrator Kaniewski, in the 2017 
hurricane season after-action report, FEMA indicated did not 
properly take into account the factors that would make it 
difficult for Puerto Rico to withstand a major hurricane. FEMA 
also admitted that it did not anticipate the logistics demands 
as you stated associated with the response activities on the 
island. Now that FEMA has identified these shortcomings, do you 
believe the agency has the tools necessary to respond 
appropriately should a similar disaster strike Puerto Rico?
    Let me just say, I give a lot of credit for you admitting 
where some of the shortcomings were, where a lot of times get 
that part of it. So, I commend you on that a bit. So, could you 
respond, please?
    Mr. Kaniewski. Thank you, Ranking Member.
    Yes, much of what you mentioned aligns directly with Goal 2 
in our strategic plan which is enhancing the Nation's 
catastrophic readiness. So, just as the same that Goal 1 said 
individuals need to be prepared and FEMA needs to be prepared 
to assist, Goal 2 says FEMA's role should really be in our view 
focused on catastrophic events.
    We estimate that probably 80 percent of events could be 
best managed at the State level. What we call Federally-
supported, State-managed, locally-executed disasters could be 
the new norm going forward for potentially up to 80 percent of 
disasters. Now, all of those would still be funded by FEMA, by 
the Federal Government, but we believe that the State is best 
positioned to manage their own response and recovery, and for 
FEMA to fill in the gaps in those responses to play a much 
larger role in those 20 percent of truly catastrophic disasters 
just like Hurricanes Harvey, Irma, Maria, and the California 
wildfires.
    I think what many people also forget is that last year, 
prior to Hurricane Maria, FEMA had not only Hurricanes Harvey 
and Irma, but we had 30 other disasters even prior to 
Hurricanes Harvey where FEMA personnel were deployed all around 
the United States. The lesson we learned of course is that 
created huge staffing challenges for us when the really big one 
hit with Hurricane Maria.
    So, we had to reallocate staff and resources from all over 
the country, including from Texas and Florida to Puerto Rico 
and Virgin Islands. That was a huge challenge. So, going 
forward, what we are doing is making sure that, No. 1, we have 
more prepositioned personnel and assets and frankly, as a 
result of the busy hurricane season we had and the open 
recovery effort, the on-going recovery efforts in those four 
areas, we now have personnel prepositioned there for this 
hurricane season. So, personnel are there, thousands of FEMA 
personnel are prepositioned in those likely hurricane-prone 
areas.
    We have also pre-deployed far more commodities this year. 
The way we did that was we increased the level of contracts 
that we had and deployed--again, in Puerto Rico alone, we have 
7 times the amount of commodities there today than we did 
before Maria hit. Now, that is not because we ran out of 
commodities last year. It is because we could run out in the 
future if something even worse were to hit.
    So, we need, to your point, to not just plan for a bad day, 
but a really bad day. Today, I am confident that because of 
their updated plans and procedures and because of the 
additional personnel and commodities and equipment that is pre-
deployed to those likely hurricane-prone areas that we are 
better prepared. Finally, I will say that we exercise those 
plans. So, just this spring and for National exercise, 
National-Level Exercise 2018, we simulated a hurricane striking 
in the mid-Atlantic. To your point, it was a Category IV 
hurricane.
    It gave us the opportunity to test many of those plans and 
procedures, some of which are brand-new. Some of which now 
engage the private sector in a way that we hadn't before and we 
did that in an exercise so that now we can be better prepared 
for a real-world event for the hurricane season this year.
    Mr. Payne. OK. Thank you. OK. I am way over my time.
    So, I yield back, Mr. Chairman.
    Mr. Donovan. Thank you.
    The Chair now recognizes Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chair, and I have 5 minutes and 
I have three questions. So, hopefully we can answer all three.
    The first question is actually addressing Mr. Kelly's 
comments and the question is actually for Mr. Kaniewski. I 
would like you to respond to his assessment that the IT 
infrastructure in FEMA is outdated and needs to be fixed and 
what is your response?
    Mr. Kaniewski. Well, first of all, many of those IG reports 
that were mentioned, FEMA concurred with and we have embraced 
those findings and are doing our best to implement them. I will 
also note that, as the inspector general noted, these are 
problems that have existed since at least 2005 and so, we can't 
fix them overnight, but we are putting personnel and resources 
toward fixing them.
    We have taken some immediate actions. We have changed our 
leadership in CIO. I think that sends a strong signal that we 
are doing things differently now and we are focusing like I 
said time--our time of the leadership team as well as the 
personnel and resources on fixing some of those challenges.
    Mrs. Lesko. Thank you. Do you have a time line on what you 
are doing? Or, actually, since we don't have time, if you could 
just email it maybe to the committee and then they can email it 
to me.
    My next question actually has to do with, since I am from 
Arizona, we have wildfires. In fact, I think it was about 5 
years ago the Yarnell Hill Fire killed 19 Prescott hotshot 
firefighters. I was wondering what--this is to any of you, how 
do you work with States like Arizona to help mitigate these 
wildfires?
    Mr. Kaniewski. I will go first with one quick answer which 
is first of all, I am a former firefighter paramedic and I 
understand the devastation that can be caused by wildfires. 
But, yes, it has been--one, it has been several busy wildfire 
seasons and we at FEMA realize that we need to do more than 
respond to wildfires.
    A recent innovation is that for Fire Management Assistance 
Grants, those grants that we give out quite regularly to those 
areas hardest hit by wildfires that pays for response to those 
wildfires, reimburses State and local governments for their 
responses. We are now adding a mitigation component. In fact, 
we have added a mitigation component.
    So, for each of those Fire Management Assistance Grants, we 
are not just reimbursing for the cost of response. We are 
helping to make an investment in those local communities to 
lessen the impact of future wildfires.
    Mr. Cotter. I might add that we are working with the State 
of California in particular on software that would allow all 
the people involved in the firefighter community to understand 
the situation real-time. In particular for fire lines breached 
that people know to rally back and what point to, that may be 
they are using land mobile radios in the communication, voice 
may not be clear, and in sync communication using a software 
package and assist and maybe leave it to my colleague from PSCR 
to talk about the deployable comms piece of that which could 
have been very important in Yarnell.
    Mr. Orr. Certainly. Thank you. Our laboratory is in 
Colorado and obviously, we are dealing with several very large 
fires right now as well. So, that is a very important topic for 
us. All the areas that I listed whether it would be analytics, 
enhanced user interfaces like heads-up displays, mission-
critical voice-over-broadband or location-based services, every 
single one of those areas would be useful on the fire ground of 
a wild land fire.
    The area that Dan mentioned related to deployable is an 
area of research we are doing actually on behalf of DHS and 
Dan's group in S&T which is focused on the ability to use a 
self-contained LTE network in a box probably about this big and 
is the entire LTE network all deployed in a box about that big 
and we are looking about--taking a look at the ability to 
deploy that on a drone so that in the middle of a wild land 
fire where there is no infrastructure and no capability to 
drive in a truck, you would be able to put up a completely 
self-contained LTE network with all the mapping, the data 
transfer, the voice communications, wherever you want it and it 
would be able to follow you wherever you went.
    So, those kinds of applications I think would be fantastic 
to be able to deploy on a fire ground whether it would be in 
the wild land or an urban setting.
    Mr. Kelly. From the IG's perspective, we concur with the 
deputy administrator. Hazard mitigation grants if well-managed 
can be very effective and it actually prevents the disaster or 
the effects of the disaster before that actually occurs.
    Mrs. Lesko. Thank you. Thank you.
    I think I have run out of time. Do we have time for one 
more question, Mr. Chair? OK. Are we? Well, OK, thank you, Mr. 
Chair. I do have one last question.
    I have a constituent who has an idea on communications for 
law enforcement and for preparedness. So, what is the best way 
for an entrepreneur person to transfer their information to 
you? Should they just--I get your cards and tell them to call 
you or what is the best way to do this?
    Mr. Kaniewski. Speaking on behalf of FEMA, we have an 
industry office that does just that, that liaises with industry 
including entrepreneurs for their ideas. We also realize we 
need to do a better job of engagement. We hope to soon have a 
private sector portal on our website. So, this can be done 
electronically and that is something that we are aiming to do 
very soon.
    Mr. Cotter. Similarly, in Science and Technology we have 
industrial engagement liaisons, certainly can provide that 
information as follow up. Also depending in the type of 
technology he wants to offer, we have open procurement requests 
for industries, small businesses to apply to.
    Mr. Orr. So, at PSCR, we--I would encourage somebody to go 
to our website. We have a newsletter that alerts people to 
opportunities for funding whether it is grants or prize 
challenges. I do think our use of open innovation prize 
challenges allows us to provide funding to entities and people 
who might not normally be in the normal grant loop or 
procurement loop for the Federal Government. So, it does allow 
for a new way to interact with all kinds of innovators that are 
out there that have great ideas to help solve these issues.
    Mr. Kelly. If those actions don't work, your constituents 
should submit a hotline complaint to our hotline because there 
are some ways of getting things done also.
    Mrs. Lesko. I like how you think. All right, thank you very 
much.
    I yield back. Well, I took extra time.
    Mr. Donovan. That is all right. We will take it from you in 
the next round.
    Mr. Orr, that was an incredible, insightful thing you spoke 
about, this box on a drone in wildfires. It sounds like 
something that may be have been taken advantage of in Puerto 
Rico when the technology was down, too, that you could have 
this hotbox, whatever you call it.
    Can you describe--in your testimony, you are talking about 
other awards, one at the university in New York City, Homeland 
Security division in New Jersey received some of your awards. 
Can you tell us about some of the projects that are out there 
and if there is some kind of time frame on them?
    Mr. Orr. Absolutely. I would be happy to. One, we know we 
have a lot of work to do in a fairly constrained period of time 
at PSCR. The funding we were given from the 2012 Act that 
created the FirstNet and also funded our activities from the 
auction funds provided the time line on it of 2022.
    So, we have a lot of work to do in a short period of time. 
Although we are doing a lot of the key measurement science 
inside of our labs, we also know we need to get as many 
researchers as possible looking at this from around the country 
and around the world. So, as I said, we have already released 
over 40 grants and over $40 million to address all the issues I 
talked about. So, we have got grants in mission-critical voice 
and it is academia and industry that are part of these.
    We have got grants in analytics. We have got grants focused 
on location-based services. We have got grants focused on 
enhanced user interfaces for the future first responders. So, 
we are addressing all the areas that I have talked about. Most 
of the grants on average are 2 years because we want a 
turnaround on these grants and have enough time to then iterate 
and do another one or two iterations on grants and prize 
challenges from the results from the first.
    So, most of them are 2 years. Some of them are 3 if they 
were to an academic institution and then there was a PhD-
related researcher that needed 3 years as part of their PhD 
program. But most are 2 years and they are covering our entire 
swath of areas.
    Mr. Donovan. Thank you.
    Mr. Cotter, I did visit New Steel, remarkable work that 
they are doing there. Can you tell me what other needs you may 
have from Congress besides our local support to advance the 
technology that New Steel is working on?
    Mr. Cotter. Yes, sir. Thank you very much for your support. 
Really, that has been wonderful. It certainly has enabled us to 
keep doing what we are doing. I might just like to mention that 
much of what you have seen and certainly appreciate the work 
for the New York City regional and local first responders, I 
also like to stress that New Steel really has a National 
presence and we have done work in 41 States, 306 cities across 
the Nation.
    They have trained over 2,000 different first responders 
around the community, just an amazing amount of work. Just 
recognizing that they are not just a New York City asset, they 
are truly a National asset for us.
    Mr. Donovan. Thank you.
    The Chair now recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Let us see. Deputy Inspector Kelly, in my review of the 
FEMA's 2017 hurricane season after-action report, I was struck 
by how many of the findings were problems that we have had and 
heard of before as identified by your office. I have been on 
this subcommittee for 6 years now, 3 terms. I have had 3 
different Chairpeople. This has been the best one who has 
stayed the longest.
    But, specifically, I noted that FEMA staffing challenges, 
coordination with State and locals and asset visibility were 
issues your office flagged many years ago. Now, have you had a 
chance to review the after-action report? If so, what are some 
of the issues that continually come up and have yet to be 
addressed?
    Mr. Kelly. Ranking Member, yes, I did have the opportunity 
to review the after-action report. I thought it was very 
thorough. Some of the things that you identified there, both 
staffing issues and logistics problems are things that we have 
harped on in the past.
    In September 2016, we issued a report on FEMA's 
qualification system, their staffing system. They were supposed 
to have basically 11,000 reservists or temporary workers to 
surge for disasters. At the time that we did the audit, they 
had less than half of those individuals on board. So, they had 
basically a deficiency of half of the people that they thought 
they needed to respond to disasters.
    I noticed in the after-action report, they showed what 
appeared to be some progress in increasing the number of staff 
associated with that program. But they were far below what they 
needed. I think in years like 2017, it shows the problems with 
not having the staff on board. Now, in FEMA's defense, there 
are a number of challenges for them to get the staff that they 
need, many of which are beyond their controls. When you have a 
strong economy, it is very difficult to get people to give up 
their jobs to take on a part-time job. Maybe they need some 
legislative fixes to help work in that area.
    Another area on logistics that you addressed, we have found 
problems with their integrated systems. The deputy 
administrator emphasized the Federally-funded, State-managed, 
and locally-executed mantra that FEMA has which is a very good 
mantra, we strongly support that. But to have that work 
effectively, to be good stewards of the tax dollars, FEMA needs 
to have integrated systems that the State and local communities 
can tap into.
    We understand that they have significant problems actually 
getting information from FEMA because of the firewalls that 
have been set up, and that poses significant challenges to 
those who are trying to respond to the disasters.
    Mr. Payne. OK. Thank you.
    To the point that the deputy administrator was making in 
terms of people being bilingual and all, it would appear to me 
from the area that we come from, there were people that have 
that common interest in seeing things happen there with our 
large Puerto Rican community and Caribbean community in those 
areas to even go on local TV to say, ``We need people to 
volunteer.'' There are people that had a natural interest in 
what was happening to family members and what have you that a 
little promotion in that area.
    People were coming to my office all the time saying, 
``Well, how can we help? What can we do? We want to be 
helpful.'' To know that you were looking for people like that 
would be helpful in the onset, to your point about many of the 
FEMA's public-facing technologies for preparedness require a 
certain level of means, tech savviness, and literacy.
    For example, the preparedness information on floodsmart.gov 
or information being sent through the FEMA app all require a 
certain level of technology knowledge that not everyone has. 
How is FEMA's preparedness message reaching populations with 
limited access to technology? I have some of the most affluent 
constituents in New Jersey and some of the poorest. So, 
everybody as a State does not have the same means. How do you 
address that, sir?
    Mr. Kaniewski. Well, thank you. Yes, thank you, inspector 
general, for his, I thought, very insightful and balanced 
comments about the challenges we face.
    Just as an overall statement, I will say that you don't 
want to look at AAR in isolation. You want to look at the AAR 
in tandem with our strategic plan. They really are linked 
documents. AAR is where we think we can improve and the 
strategic plan is where we want to go in the next 5 years.
    So, first on the issue of staffing, yes, we do face many 
challenges in recruitment, in retention of our disaster 
reservists. You may not know this, but our reservists are not 
treated the same way legally as the reservists in the armed 
forces. They don't have a status that allows them either to 
become a full-time employee. There is no career path there. No. 
2, if they are to leave work, if there is a disaster and they 
leave work, there is no protection on them being able to return 
to their jobs. So, there are a number of challenges in addition 
to what you heard.
    As far as getting volunteers in the immediate aftermath of 
a disaster, I agree, we definitely want to leverage the 
volunteer base. That is generally done through the 
nongovernmental organizations. FEMA can't welcome volunteers on 
as easily. We have that reservist program, right, and that 
would take some time to get on board. But in the immediate 
aftermath, the best thing that someone can do if they want to 
help in a disaster is go to a nongovernmental organization.
    If you say, ``I am not sure which one to go to'' or ``Which 
one is the best based on my interest or my expertise?'', the 
answer is NVOAD. Now, that is an acronym for the National 
Volunteer Organizations Active in Disaster. Would you believe 
today at FEMA headquarters is our voluntary partnership day? 
So, today, we are showcasing all of these volunteer 
organizations we are working with and strengthening those bonds 
with those organizations, so they can bring on volunteers. They 
can provide specialized resources.
    As far as other employees, how we can leverage those with a 
particular interest, I think we can all agree. Those that have 
the most interest in their recovery are the disaster survivors 
themselves. I am very proud to say that today, FEMA is one of 
the largest employers on Puerto Rico. We have I believe 1,500 
local hires that are managing not only our recovery programs, 
but managing their recovery for the future.
    Now, to your point about not everybody having access to 
technology, I agree. We know that there are always be a segment 
of the population that we can't reach via technology. So, no 
matter how much we go on Twitter, or how much we post on the 
website, we have to have relationships on the ground. Now, for 
FEMA, that might mean our regional offices. It might mean our 
joint field offices. So, anybody in the disaster site can go to 
our joint field office and get some one-on-one assistance.
    But in addition, we are working with the NGO community and 
I want to mention one in particular, which is Operation HOPE. 
Operation HOPE has an unbelievable mission. They are out there 
educating people on financial literacy. We have partnered with 
them. We have developed an emergency financial first aid kit to 
help those that do not have the financial literacy, help them 
prepare for a disaster, help them prepare for any emergency 
that they might have.
    If you ever want to see an inspiring story, look at John 
Hope Bryant, the founder of that organization. I am going to 
use a plug here for our prep talk series, I don't know if 
anybody has heard of that. But think of it as like a TED Talk 
for emergency management. This has been very popular and John 
Hope Bryant himself did one of our first prep talks. So, you 
can find that on-line. I think that message really resonates 
with me and it reminds me every day that we need to make sure 
that we are helping everyone, every American, not just those 
with access.
    Mr. Payne. Thank you.
    I will yield back, Mr. Chairman.
    Mr. Donovan. The Chair recognizes Mrs. Lesko for any 
questions she may have. You are their favorite Member.
    For not only your testimony and not only your patience with 
us today, but also to your service to our Nation, there is a 
lack of understanding sometimes of what everyone's role is. 
Sometimes, there is a lack of understanding, not from the 
people on this committee, but other Members of Congress what 
your role is. So, what you have shared with us today is 
insightful.
    Know that you have our support and please again--no one 
answered my question, but we are lawmakers. Sometimes we make 
laws that aren't as effective as the people who need to use 
them would wish them to be. So, this communication that we have 
doesn't end here today. Let us know how we could help you 
protect our communities.
    The Members of the subcommittee may have some additional 
questions for the witnesses. We ask that you respond to those 
in writing. Pursuant to the committee rule VII(D), the hearing 
record will remain open for 7 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 3:51 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

Questions From Ranking Member Donald M. Payne, Jr. for Daniel Kaniewski
    Question 1a. In its 2017 Hurricane Season After-Action Report, FEMA 
admitted it did not have situational awareness of the damage inflicted 
by Hurricane Maria. Three days after the storm, FEMA and Puerto Rico 
had not begun water and wastewater assessments and ``communications 
challenges inhibited reporting of road outage assessments.'' A week 
after the storm hit, FEMA still did not have information on the status 
of ``24 of 52 wastewater treatment plants or 37 of 69 hospitals.''
    Is there technology to improve FEMA's situational awareness after a 
catastrophic natural disaster?
    Question 1b. If so, what is it?
    Question 1c. Is FEMA exploring such technology?
    Question 1d. Beyond technology, what more can FEMA do to improve 
post-disaster situational awareness?
    Answer. In the immediate aftermath of Hurricane Maria, critical 
lifelines across Puerto Rico were unavailable or severely affected, 
including power, communications, and transportation. Specifically, the 
lack of viable means of communication impacted the Commonwealth's 
ability to gain situational awareness across the island. The Governor 
and the Puerto Rico Emergency Management Agency (PREMA) were unable to 
communicate with the 78 mayors, municipal emergency managers, and first 
responders. This lack of communications reduced the ability to receive 
damage assessments and reports of key impacts, and threatened State and 
local continuity of government. FEMA rapidly deployed communications 
equipment and its Mobile Emergency Response Support (MERS) teams to 
help establish contingency communications networks across the island, 
including delivering satellite phones to each municipality, which 
helped improve communication and reporting.
    Further, Federal, State, and local responders had to conduct in-
person assessments of many key lifeline-enabling infrastructure, 
including hospitals and water treatment plants. Emergency Support 
Function (ESF)-8 (coordinated by Health and Human Services) and ESF-10 
(coordinated by Environmental Protection Agency) led Federal support to 
assess and identify requirements to stabilize their associated 
lifelines. However, many areas were isolated due to road closures, and 
owners and operators of the facilities faced the same communications 
challenges experienced by the municipal governments. In the initial 
weeks of the incident, various response teams, including FEMA's 
National Urban Search and Rescue Response System's Task Forces, 
conducted assessments of hospitals and other critical infrastructure to 
determine status and key requirements and share their findings with the 
appropriate entities. Transportation and power limitations complicated 
efforts to conduct assessments, but a lack of resilient and redundant 
communications infrastructure was the major limiting factor in gaining 
situational awareness.
    To prevent a complete communications failure following a large-
scale incident in the future, State and local governments, and owners 
and operators of critical infrastructure should focus their efforts on 
building redundant means of communication, including emergency 
communication. For example, high-frequency radio would likely be one of 
the few forms of available communications following a catastrophic 
incident. The Federal Government can emphasize the importance of 
preparedness, continuity planning, and contingency communications 
capabilities for State and local constituents. FEMA's grant programs 
provide funding mechanisms for State and local governments to procure 
critical preparedness equipment, and can be used to build organic 
contingency communications capabilities for the State and local 
governments and first responders.
    FEMA is also making strides to improve situational awareness and 
reporting across the response lifelines (transportation, 
communications, power/fuel, food/water/shelter, safety and security, 
health and medical, and hazardous materials). FEMA is partnering with 
the National Protection and Programs Directorate (NPPD) to leverage 
steady-state public-private coordination mechanisms across the 16 
critical infrastructure sectors during response operations. National-
level reporting mechanisms will provide a means to receive status 
updates and requirements from industry and infrastructure owners and 
operators, aimed at improving reporting and situational awareness, 
unity of effort, and operational prioritization. To institutionalize 
these improvements, FEMA is revising the National Response Framework to 
focus response toward the stabilization of critical lifelines and 
establish a new Emergency Support Function-14 (Cross-Sector 
Coordination).
    Establishment of an interoperability operational framework allowing 
for voice and data exchange (e.g., IP-based gateways) between varying 
communications technologies and networks such as HF communications, 
satellite communications, and commercial wireless broadband/WiFi and 
cellular pending degree of infrastructure damage and wide-spread nature 
of natural disaster. Increased alignment with commercial communications 
providers in the area of the natural disaster to determine (via 
provider network management systems) which cell sites may still be 
operational with sufficient backhaul and power (including assessing 
battery life).
    Build a shared Federal LMR network in PR and the U.S. Virgin 
Islands (USVI) to support assigned, dedicated channels for 
participating Departments, Agencies, and Components (D/A/Cs), augmented 
with dedicated interoperability channels in Federally-assigned very 
high frequency (VHF) and ultra-high frequency (UHF) bands. A network 
designed to carry voice and LMR data traffic, and expand to include 
other technologies as needed, and accommodate participation from local, 
territorial, and Commonwealth subscribers.
    Question 2. In the aftermath of Hurricane Maria, several large-
scale tech companies like Facebook, Tesla, and Google came to Puerto 
Rico to assist with emergency response and rebuilding efforts. How does 
FEMA plan to better leverage and coordinate with the private sector for 
short- and mid-term technology needs for future disasters?
    Answer. Technology integration and innovation in disasters has been 
a reality during this historic hurricane season. The FEMA Private-
Sector team comprised of approximately 60 staff across HQ, Regions, and 
deployed staff managed the integration of the business community into 
response and recovery across not just the three largest disasters in 
Texas, Florida, and Puerto Rico but nearly 30 other disasters including 
the fires in California. Given the scale of these incidents, the 
maturation of emergency management within the business community, and 
continued integration of the private sector into government operations, 
innovation in disasters continues well into recovery. At the height of 
response, FEMA was directly coordinating with more than 1,200 National 
businesses daily including key technology and innovation leaders who 
helped support affected States and survivors.
    Through the National Business Emergency Operations Center (NBEOC) 
FEMA coordinates with business, industry, and infrastructure owners and 
operators, which had more than 800 National members at the time of 
Hurricane Maria, including technology companies of various scale, 
capabilities, and maturity. FEMA currently has nearly 40 signed 
coordination agreements with technology companies including: Arc 
Aspicio, Airbnb, Amazon, CenturyLink, Cisco TacOps, Dbi Services, 
Digital Global Systems, Dun & Bradstreet, Esri US, Everbridge, Excel 
Technologies, Facebook, Google Disaster Response, Hughes Network 
Systems, Humanity Road, Icloud, Information Technology Disaster 
Resource Center, Intel, SABER, Lyft, MIT, M2Catalyst, MapR Federal, 
Microsoft, Microsoft Philanthropies, MutuaLink, Nextdoor, Oracle, Plum 
Laboratories, SABER, Sprint, Siemens, Twitter, Uber, Verizon, World 
Wide Technology, Zillow Group.
    Since 2015, the Tech Sector Collaboration Program effort has been 
aligned closely with the NBEOC as part of the National Response 
Coordination Center (NRCC) where these companies and non-governmental 
organizations, such as Information Technology Disaster Resource Center 
(ITDRC) and Humanity Road, are aligned in response operations.
    During Hurricane Harvey, program members along with additional 
technology companies held daily conference calls in addition to normal 
NBEOC calls for more specific tech issues based on the situation. This 
consistent collaboration resulted in Cisco and ITDRC assisting San 
Antonio Food Bank in 10 affected neighborhoods with data connectivity 
so they could assist Harvey survivors in registering for Disaster 
Unemployment Assistance while also providing connectivity for donation 
management warehouses in Texas. In a combined effort, Dell, Google, 
Cisco, DISH, and Ruckus provided network infrastructure, internet 
backhaul, and computer hardware for evacuation shelters in Dallas, 
Austin, Houston, and in surrounding areas, along with Intel's 
coordination with the American Red Cross.
    These efforts made an impact. Humanity Road provided situational 
reporting areas of approximately 8.7 million people. The team monitored 
and relayed urgent needs where Twitter traffic averaged 6.5 million 
tweets daily to first responders. They had a team of 50 volunteers from 
8 States and 7 countries with an additional 13 translators from 
Translators without Borders. Humanity Road volunteers supported the 
public with information needs, as well as the Army National Guard and 
U.S. Coast Guard with a rescue map containing more than 1,000 requests 
for rescue which informed rescue operations.
    During Hurricane Irma, ITDRC provided assets and volunteers to 
provide voice and internet connectivity for the county Emergency 
Operations Center enabling several departments in the city of Marathon, 
Florida to coordinate response as well as in the various Florida 
Chambers of Commerce and Florida Department of Law Enforcement. 
Additionally, they equipped the AmeriCorps teams with their technology 
in TX, Florida (FL), Puerto Rico (PR), and the U.S. Virgin Islands 
(USVI), as well as providing technology resources to National and 
regional nonprofits such as Team Rubicon, Red Cross, Catholic 
Charities, and Toolbank. Humanity Road co-located with FEMA in Big Pine 
Key, FL supporting local response through situational awareness 
reporting and staffing a resource information center for 2 weeks. Also, 
the mobile app Gas Buddy provided data to the Florida Department of 
Emergency Management and FEMA as part of supply chain stabilization for 
fueling in Florida to reduce lines and address shortages.
    During the first week of Hurricane Maria response, FEMA for the 
first time established the Puerto Rico Business Emergency Operations 
Center in the Joint Field Office (JFO) to ensure clear coordination 
with the private sector for supporting business continuity, industry 
solutions, and infrastructure restoration aligned with various sectors. 
This helped ensure, for example, that the Puerto Rico Chief Information 
Officer's request for fielding of Project Loon to Google was 
appropriately coordinated. In another innovation, Tactivate, an 
entrepreneurial expeditionary team working with the Puerto Rico Offices 
of Family Services and local authorities, enabled data connectivity 
allowing more than $250,000 in electronic transactions within remote 
communities so survivors could access their assistance funds and 
increase their personal resilience. In both cases, FEMA supported the 
efforts of the Puerto Rico government and the technology companies, 
only coordinating where needed as opposed to directing efforts. The 
director, private sector met with a multitude of companies not limited 
to Tesla, Google, ESRI, Microsoft as well as the Puerto Rico technology 
incubator Parallel 18 and other Silicon Valley firms.
    In other post-Maria operations, ITDRC, DISH, Datapath, Sprint, 
Google, and Dell volunteers pooled resources to provide 40 notebooks to 
the USVI to register survivors for assistance. Through the collective 
efforts between PR Emergency Management Agency, DISH, and ITDRC in 
response to an urgent need, the companies collaborated with HughesNet 
to donate a satellite establishing internet connectivity for the only 
operating pharmacy in Cabo Rojo providing medicines to more than 49,000 
citizens. Intel also provided drone expertise for locating survivors 
and damage assessment efforts in PR following successful deployment 
training for immediate response needs in the Mexico City earthquake. 
Today, Microsoft continues providing data visualization for the 
Governor of Puerto Rico's status.pr website and supporting NetHope and 
other partners in the Caribbean providing pallets of solar panels and 
batteries to support TV White Space emergency connectivity sites. 
Currently in Puerto Rico, FEMA is working with private sector to 
coordinate opportunities to jointly bury fiber with PREPA, PRASA, and 
transportation. This allows the carriers to save time and resources 
where trenching is already occurring or where vaults are being built on 
new roads. Through the ``sector-based'' recovery model, agencies are 
coordinating with the private sector (both telecom and broadcasters) to 
develop the generation and distribution of wireless and emergency 
alerting.
    Overall, during the 2017 hurricane season, the NBEOC received more 
than 10,000 inquiries, offers of capabilities, and several pitches from 
technology companies. FEMA is currently developing a new effort to 
collect, filter, and evaluate the feasibility of these unsolicited 
offers for potential use and provide innovations to the agency and the 
emergency management enterprise for consideration. This will be jointly 
managed by the Office of the Chief Procurement Officer and the Private 
Sector Division in the Office of Response and Recovery.
    The lessons learned from the historic 2017 hurricane season and the 
complexities presented by a dynamic threat and hazard environment make 
clear that private-sector operational integration is essential based on 
the systemic interdependence and disconnects which can be addressed 
supporting community economies Nationally. As a result, FEMA requested 
and received authorization from the Secretary of Homeland Security to 
update the National Response Framework (NRF) and develop Emergency 
Support Function-14.
    ESF-14 will create an integrated, designated, formal response 
coordination mechanism that will allow greater insight into the needs 
for business resumption, infrastructure restoration, and other private-
sector-enabling activities which can shift systems from disrupted to 
sustainable operations. This will improve precise information sharing 
between Government and the private sector based on information 
requirements and stabilization indicators collaboratively developed 
that will accelerate response and recovery. And most importantly from a 
technology implementation perspective, greater actionability for 
issues, concerns, and complex challenges requiring sustained 
collaboration to stabilize the incident.
    Recent coordination with the technology community includes, but is 
not limited to:
  <bullet> NLE18 (May 2018): NBEOC Members in active exercise planning 
        and conduct: Amazon, Cisco TacOps, DBi Services, Dun & 
        Bradstreet, Everbridge, Humanity Road, ITDRC, Microsoft, MIT, 
        MutuaLink, Nextdoor, Plum Laboratories, SABER, Uber.
  <bullet> Airbnb (May 2018): Engagement with Individual and Community 
        Preparedness Division on community engagement around hurricane 
        preparedness.
  <bullet> White House (May 30, 2018): Facilitated tech sector 
        participation for White House Office of Science and 
        Technology's ``Improved Information Sharing for Whole Community 
        Disaster Response'' Workshop.
  <bullet> Zillow (June 2018): Engagement with FIMA Risk Management 
        Division to promote awareness of flood zones and using data.
  <bullet> Private Public Partnership Conference (July 24-25, 2018): 
        Hosted a Technology Integration Workshop with the DHS Private 
        Sector Office as well as tabletop exercise and operational 
        coordination including Airbnb, Amazon, CenturyLink, IBM, 
        Nextdoor, Siemens, Twitter, and Verizon.
    Last, the Private Sector Division was moved from the Office of 
External Affairs to the Office of Response and Recovery. The Division 
is being resourced to contribute to private-sector integration across 
community lifelines and retool the Tech Sector Collaboration Program to 
expedite the potential use of technologies during disasters including 
aligning with existing capabilities or crises response efforts of the 
tech community. This process will include working with DHS Science and 
Technology and the DHS Private Sector Office.
    FEMA's Tech Sector Collaboration Program is only one way that 
technology-driven capabilities can be used in disasters. Some companies 
seek collaboration only with certain non-governmental organizations or 
on their own, instead of coordinating with FEMA. While the program is 
not designed for individuals, we do guide those volunteers to the 
Volunteer Organizations Active in Disasters and other proven partners 
such as the Information Technology Disaster Resource Center (ITDRC). 
Technology integration and volunteerism in disasters will continue, and 
the FEMA Private Sector Division will continue to support these 
efforts.
    Question 3. According to FEMA's recently published After-Action 
Report, the 2017 ``hurricanes and wildfires collectively affected more 
than 47 million people--nearly 15 percent of the Nation's population.'' 
Given these statistics, it is likely that close to 10 million of these 
affected individuals should have been provided with the civil rights 
protections of equal access to emergency services and programs. Given 
the thousands of disaster-related deaths and the disproportionate 
impact of the disasters on countless people with ``chronic health 
conditions'' and disabilities, why is it that the FEMA After-Action 
Report doesn't make any mention or provide any recommendations for 
improvements in meeting its disability civil rights obligations?
    Answer. FEMA is committed to serving all survivors, including 
survivors with disabilities and other access and functional needs and 
did during the 2017 hurricane season. The final chapter of the After-
Action Report (AAR), on Mass Care to Initial Housing Operations, 
focuses specifically on areas where FEMA can improve services to all 
survivors, including those with disabilities and other access and 
functional needs. FEMA describes how the implementation of the Direct 
Lease program may have better served survivors with disabilities and 
other access and functional needs. As noted on page 45 of the AAR:

``Due to the shortage of available housing resources to accommodate the 
large number of survivors requiring housing assistance, FEMA developed 
a new Direct Lease program. This program facilitated survivor access to 
property not typically used for temporary housing, such as corporate 
lodging or vacation rentals. In addition, Direct Lease can be a 
potentially safer option for displaced families with access and 
functional needs compared to a manufactured housing unit.''

    In addition, the AAR provides recommendations to improve service to 
all citizens inclusive of survivors with disabilities and other access 
and functional needs. For example, page 47 of the AAR mentions that 
``State and local governments are best positioned to determine housing 
options for their citizens, with support from the Federal Government.'' 
On page 48, the AAR further recommends that:

``Federal housing assistance can be adapted to build SLTT capacity to 
manage disaster housing programs on behalf of their citizens . . .  
Changes should offer State, local, Tribal, and territorial partners the 
flexibility to provide housing options that work for their citizens. 
The goal will include an expeditions and smooth transition for 
survivors from immediate to mid- to long-term housing solutions.''

    Question 4. How is FEMA carrying out its responsibility for 
ensuring that Emergency Support Function No. 8 is carried out in 
compliance with disability civil rights obligations throughout disaster 
response and recovery?
    Answer. FEMA deploys Disability Integration Advisors to each Joint 
Field Office to support response and recovery efforts, as well as to 
the National Response Coordination Center (NRCC) and Regional Response 
Coordination Centers (RRCCs). These advisors provide the Federal 
Coordinating Officer, NRCC and RRCC leadership and incident management 
organization with situational awareness, advice, and guidance to ensure 
people with disabilities have equal access to all programs and services 
across the disaster life cycle. FEMA mission assigns the Department of 
Health and Human Services (HHS) to lead the Federal Government's 
support to public health and medical response during Presidentially-
declared Emergencies and Major Disasters. HHS is the coordinating 
agency for Emergency Support Function (ESF)-8, Public Health and 
Medical, as well as the Health and Social Services Recovery Support 
Function. The Disability Integration Advisors provide ESFs, including 
ESF-8, with required support in the form of counsel and advice based on 
lessons learned from prior disaster responses. Under its mission 
assignment, FEMA delegates decision making authority to HHS on specific 
disability civil rights obligations with regard to public health and 
medical response and recovery.
    Question 5. What is FEMA doing to ensure that Federal funds 
expended throughout disaster response and recovery are provided in 
compliance with obligations to ensure that disaster-impacted 
individuals with disabilities are provided equal access to emergency 
services and programs in the most integrated setting appropriate, as 
required?
    Answer. The Federal Emergency Management Agency (FEMA) and the 
State, Tribal, or territorial government receiving Federal disaster 
assistance (Recipient) enter into a FEMA-State Agreement (FSA) or FEMA-
Tribe Agreement (FTA) that requires the Recipient to comply with non-
discrimination assurances under Title VI of the Civil Rights Act of 
1964 and Section 504 of the Rehabilitation Act of 1973. Both of these 
Acts prohibit discrimination in programs receiving Federal financial 
assistance. Section 504 specifically states that `` . . . no person, by 
reason of her or his disability, shall be excluded from the 
participation in, be denied the benefits of, or be subjected to 
discrimination under any program or activity receiving Federal 
financial assistance or under any program or activity conducted by any 
Executive agency . . . ''.
    In addition to the FSA/FTA, FEMA promotes this non-discrimination 
requirement through information provided to disaster survivors with the 
opportunity to file a complaint in instances of perceived 
discrimination. Fliers and other information posters are published in 
all languages related to the demographics of the disaster impacted 
area, in multiple accessible formats, and distributed through numerous 
media outlets to reach the broadest possible disaster survivor 
audience.
    The FSA assurances also support FEMA programs guidance to 
recipients in providing equal access to all applicants. This guidance 
is set forth in the Individuals and Households Program Unified Guidance 
(IHPUG) which outlines program delivery considerations for applicants 
for assistance with disabilities and other individuals with access and 
functional needs, those with LEP, those residing in insular areas, and 
Tribal governments.
    FEMA ensures equal access to eligible services and programs for all 
applicants with disabilities and other individuals with access and 
functional needs. FEMA provides all of the following:
  <bullet> Accessible communication for applicants who are deaf, hard 
        of hearing, or have a speech disability. Applicants should call 
        800-462-7585 for TTY or 800-621-3362 for 711 or VRS.
  <bullet> Access to DRCs that comply with the Americans with 
        Disabilities Act and Section 504 of the Rehabilitation Act, 
        which include wheelchair ramps, accessible restrooms, and 
        accessible paths of travel from the parking lot and throughout 
        the facility, as well as multi-lingual signage and technology 
        to address a variety of access and functional needs.
  <bullet> Alternative formatted materials in large print and Braille.
  <bullet> American Sign Language interpreters and/or Communication 
        Access Real-time Translation (CART) at public/community 
        outreach events and field staff equipped with tablet computers 
        that can access Video Relay Interpreting (VRI) for applicants 
        who use American Sign Language.
  <bullet> Assistance for applicants who are having difficulty 
        understanding the registration process, denial letters, or the 
        appeal process.
    Disaster Recovery Centers:
  <bullet> Disaster survivors may apply for assistance in person at 
        DRCs in or near their communities. DRCs are usually opened 
        quickly after a disaster for a limited period of time. They are 
        accessible and equipped to accommodate disaster survivors who 
        need disability-related communication aids. FEMA staff can 
        assist with completing registrations or checking their 
        application status. FEMA coordinates with the State, 
        territorial, Tribal, or local government to establish DRC 
        locations.
    The FEMA Office of Equal Rights (OER) monitors recipients providing 
assistance to disaster survivors to ensure there are no barriers to 
access and participation by persons with disabilities. Where relevant 
factors trigger concerns about the effectiveness of non-discriminatory 
recipient program delivery and access, OER conducts reviews to assess 
the recipient's procedures and offer technical assistance to promote 
voluntary compliance as required by the applicable regulations. Also, 
OER is responsible for processing complaints of discrimination from 
disaster survivors that allege discrimination in participation or 
access in the programs receiving Federal disaster assistance.
    Question 6. How is FEMA monitoring the use of billions of 
preparedness, disaster relief, recovery and hazard mitigation funds it 
expends and provides to grantees, sub grantees, contractors, sub-
contractors and other recipients of Federal funds in compliance with 
its obligations under Section 504 of the Rehabilitation Act of 1973?
    Answer. The Federal Emergency Management Agency (FEMA) and the 
State, Tribal, or territorial government receiving Federal disaster 
assistance (Recipient) enter into a FEMA-State Agreement (FSA) or FEMA-
Tribe Agreement (FTA) that requires the recipient to comply with non-
discrimination assurances under Title VI of the Civil Rights Act of 
1964 and Section 504 of the Rehabilitation Act of 1973. Both of these 
acts prohibit discrimination in programs receiving Federal financial 
assistance. Section 504 specifically states that `` . . . no person, by 
reason of her or his disability, shall be excluded from the 
participation in, be denied the benefits of, or be subjected to 
discrimination under any program or activity receiving Federal 
financial assistance or under any program or activity conducted by any 
Executive agency . . . ''.
    The FEMA Office of Equal Rights (OER) monitors recipients providing 
assistance to disaster survivors to ensure there are no barriers to 
access and participation by persons with disabilities. Where relevant 
factors trigger concerns about the effectiveness of non-discriminatory 
recipient program delivery and access, OER conducts reviews to assess 
the recipient's procedures and offer technical assistance to promote 
voluntary compliance as required by the applicable regulations. Also, 
OER is responsible for processing complaints of discrimination from 
disaster survivors that allege discrimination in participation or 
access in the programs receiving Federal disaster assistance.
    The Civil Rights Unit of OER reviews grant applications and grant 
awards, conducts site reviews and desk audits of recipients, conducts 
compliance reviews where relevant factors determine compliance reviews 
should be conducted, and provide technical assistance when recipients 
are not providing effective program guidelines and practices that 
ensure compliance with Section 504 of the Rehabilitation Act of 1973. 
The Civil Rights Unit also processes complaints of discrimination 
against recipients filed by disaster survivors, contractors, or other 
persons that allege denial of access and participation in recipient 
programs and activities.
    FEMA ensures the use of preparedness funds it provides to 
recipients are expended in compliance with obligations under Section 
504 of the Rehabilitation Act of 1973 by including this as one of the 
DHS Standard Terms and Conditions on each award and by requiring that 
all grant recipients certify compliance with the Rehabilitation Act of 
1973 by submitting Standard Form (SF)-424B, Assurances for Non-
Construction Programs, or SF-424D, Assurances for Construction 
Programs, as applicable, before FEMA awards funds to the recipient:
    1. The DHS Standard Terms and Conditions for various fiscal years 
        are available at https://www.dhs.gov/publication/fy15-dhs-
        standard-terms-and-conditions require that all recipients 
        comply with Section 504:
      a. Rehabilitation Act of 1973 Recipients must comply with the 
            requirements of Section 504 of the Rehabilitation Act of 
            1973, (29 U.S.C. Sec. 794), as amended, which provides that 
            no otherwise qualified disabled individuals in the United 
            States will, solely by reason of the disability, be 
            excluded from participation in, be denied the benefits of, 
            or be subjected to discrimination under any program or 
            activity receiving Federal financial assistance.
    2. Grant applicants must also certify compliance with Section 504 
        when signing the standard assurances form(s) of SF-424B (non-
        construction programs) or SF-424D (construction programs), 
        which are available https://www.grants.gov/web/grants/forms/sf-
        424-family.html#sortby=1. In SF-424B, compliance with Section 
        504 is stated in paragraph 6, and in SF-424D, compliance with 
        Section 504 is stated in paragraph 10. The paragraphs on both 
        forms require the recipient to comply with all Federal statutes 
        relating to nondiscrimination, including Section 504 of the 
        Rehabilitation Act of 1973, as amended (29 U.S.C.  794), which 
        prohibits discrimination on the basis of a disability.
    3. Complaints received concerning compliance with Section 504 of 
        the Rehabilitation Act of 1973 are investigated and referred to 
        OER. Under 44 C.F.R.  13.43 for awards to States, Tribes, and 
        local governments before December 26, 2014, 2 C.F.R.  215.62 
        for awards to institutions of higher education, hospitals, and 
        other nonprofit organizations before December 26, 2014, and 2 
        C.F.R.  200.338 for awards to all non-Federal entities on or 
        after December 26, 2014, FEMA has the authority to take certain 
        enforcement actions for noncompliance with a term and condition 
        of the award. Such remedies include imposing specific 
        conditions, withholding payments, withholding further awards, 
        and disallowing costs.
Questions From Ranking Member Donald M. Payne, Jr. for Daniel M. Cotter
    Question 1a. To what extent is S&T working to develop technologies 
to address the threat posed by unmanned aerial systems over public 
areas?
    Answer. DHS is in need of new legislative authority to counter the 
growing threats and potential misuse of Unmanned Aircraft Systems 
(UAS). The most effective technologies for countering malicious uses of 
UAS conflict with Federal laws enacted long before UAS technology was 
available for commercial and consumer use. Specifically, DHS needs 
Counter-UAS (CUAS) authorities to detect, track, and mitigate threats 
from small UAS before further UAS integration actions by the Federal 
Aviation Administration (FAA). DHS cannot develop and operate many 
types of CUAS technologies without these authorities.
    Current law prohibits the use of most Counter Unmanned Aircraft 
Systems (UAS) technology to detect, track, and mitigate threats. As you 
are aware Chairman McCaul recently introduced H.R. 6401 that would 
provide DHS and DOJ with narrowly-scoped authorities to counter UAS. 
DHS greatly appreciates the Chairman's efforts to close this important 
authority gap.
    Although we are prohibited from developing kinetic or electronic 
mitigation solutions, in the mean time, S&T developed the Counter-Small 
UAS Advisory and Review Toolkit (C-SMART), which is a suite of computer 
models and analysis tools that can be used to optimize the sensor 
layout and overall architecture of a CUAS system being deployed to 
protect people and/or critical infrastructure. To date, C-SMART has 
been used to support National Special Security Events, such as the 
Presidential Inauguration, and others with high Special Event 
Assessment Rating, such as the Super Bowl. The C-SMART technology is a 
modeling tool and does not violate the problematic statutes. C-SMART 
also supports FAA and TSA in assessing the vulnerability of airports to 
malicious drones and the associated cost and level of protection by 
counter-drone capabilities.
    Given the wealth of commercially available off-the-shelf solutions 
(COTS), S&T focuses on testing and evaluating COTS in settings that are 
relevant to homeland security in order to advise DHS operating 
components while guiding industries' development efforts. S&T provides 
upgrades to existing capabilities using mature technologies, while 
leveraging Department of Defense and Department of Energy investments 
to incubate new technologies against future threats, such as advanced 
algorithm to reduce false alarms for urban sensors or safe-eye laser 
imaging detection and ranging.
    S&T is working with a DHS operational component to create an urban 
testbed. This testbed will serve both as an interim operational system 
and as a testbed to assess the efficacy of various detection, tracking, 
identification, and mitigation for CUAS technologies. This effort also 
ties into the work NASA Ames is doing for the Federal Aviation 
Administration on a UAS Traffic Management system.
    Question 1b. Are there statutory obstacles to addressing this 
threat?
    Answer. DHS is in need of legislative authority to counter the 
growing threat posed by unmanned aircraft systems (UAS). Specifically, 
DHS needs Counter-UAS (CUAS) authorities to employ certain types of 
technology deemed more effective to detect and track small UAS and 
mitigate malicious small UAS. Without this mandate, DHS is unable to 
develop and operate many types of CUAS technologies. Pending 
legislation, S. 2836, the Preventing Emerging Threats Act of 2018, 
would provide DHS the ability to develop the necessary technology and 
deploy it in support of our identified missions to mitigate the range 
of threats from small UAS. With approval of this authority, Congress 
would reduce risks to public safety and National security, will help to 
accelerate the safe integration of UAS into the National Airspace 
System (NAS) and ensure that the United States remains a global leader 
in UAS innovation.
    In normal security situations, law enforcement personnel can 
establish protective measures to protect people and property from 
mobile threats--that is simply not the case with drones as they are 
able to access areas that people, cars, or other mobile devices cannot. 
Moreover, the most effective technologies for countering malicious uses 
of UAS conflict with Federal laws, such as the Wiretap Act and the Pen 
Trap and Trace Statutes, enacted long before UAS technology was 
available for commercial and consumer use. Additionally, State and 
local law enforcement are generally responsible for protection of local 
events and mass gatherings, but neither has authority to use CUAS 
technologies to counter potential threats. A provision included in S. 
2836 would allow DHS or DOJ to provide assistance, within available 
resources, when requested by the State Governor or Attorney General. We 
believe this is an important aspect of our continued coordination with 
State and local law enforcement partners
    Question 2. How does S&T collaborate with the Small Business 
Administration (SBA) to provide support to small businesses in order to 
develop quality manufacturing practices and procedures to insure 
mission-critical products are placed in the hands of the first 
responder community?
    Answer. The DHS SBIR Office does not collaborate with SBA in the 
area of providing support to small businesses in order to develop 
quality manufacturing practices and procedures. However, S&T does 
provide small businesses with test and evaluation support at its 
laboratories and testbeds through cooperative research and development 
agreements (CRADAs) to ensure that their manufactured technologies meet 
the technology requirements of DHS components. In addition, S&T 
provides access to commercialization support to help small business 
performers improve their chances of success in the public sector arena 
and ensure that mission-critical products can be manufactured and made 
available in the marketplace.
  Questions From Ranking Member Donald M. Payne, Jr. for Dereck R. Orr
    Question 1. Please describe how NIST is working with FirstNet to 
ensure the success of the network.
    Answer. NIST's Public Safety Communications Research Division 
(PSCR) has benefited from a partnership with FirstNet, beginning in 
2012. NIST PSCR and FirstNet have collaborated to identify their 
research portfolio. Additionally, prior to 2016 (when spectrum auction 
funds became available to NIST), PSCR performed research specifically 
for FirstNet. Since the auction funds became available, PSCR regularly 
meets with FirstNet to provide information on key research findings; 
updates FirstNet leadership on a bi-monthly basis at the Federal 
Partners Meeting; utilizes FirstNet's Public Safety Advisory Committee 
(PSAC) members as subject-matter experts for research and testing; 
funds participation of FirstNet's PSAC members in PSCR's annual 
stakeholder meeting; and invites FirstNet participation in grant and 
prize challenge development, including serving as judges and selecting 
officials.
    Additionally, as required by the Middle Class Tax Relief and Job 
Creation Act of 2012 (Pub. L. 112-96), NIST ensures the development of 
a list of certified devices that meet appropriate protocols and 
standards for access to, use of, or compatibility with the Nation-wide 
Public Safety Broadband Network (NPSBN) that FirstNet and AT&T build 
and maintain. This requirement is carried out by the PSCR of the NIST 
Communications Technology Laboratory.
    Question 2. How does NIST-PSCR collaborate with the Small Business 
Administration (SBA) to provide support to small businesses in order to 
develop quality manufacturing practices and procedures to insure 
mission-critical products are placed in the hands of the first 
responder community?
    Answer. NIST PSCR currently does not have any collaboration with 
the Small Business Administration to provide support in developing 
quality manufacturing practices. PSCR works with the first responder 
community to advance public safety communications technologies by 
accelerating the adoption and implementation of the most critical 
communications capabilities. NIST PSCR also works to ensure that the 
public safety community can more effectively carry out their mission to 
protect lives and property during day-to-day operations, large-scale 
events, and emergencies.
    Question 3a. Have prototypes of the ``network-in-a-box'' device 
shown operational ability in water trials similar to that of a flood 
scenario where individuals are isolated in their communities?
    Question 3b. If so, what were the results?
    Question 3c. If not, are plans under way to conduct such trials and 
provide results?
    Answer. The ``network-in-a-box'' prototype is an early stage 
research project and has not been deployed in any operational or trial 
situations. PSCR is still performing laboratory tests to understand 
applications and capabilities. However, our vision is that the network-
in-a-box will be a useful tool for many natural disaster scenarios such 
as fire grounds, flood areas, and earthquake zones.
  Questions From Ranking Member Donald M. Payne, Jr. for John V. Kelly
    Question 1a. By FEMA's own staffing models, they are roughly 4,000 
staff members short of their target staffing number for incident 
workforce personnel. Your office has reviewed FEMA's workforce 
challenges multiple times.
    Beyond some of the more obvious issues with personnel shortages 
(staff exhaustion, low morale, etc.) what are some of the other issues 
associated with low staffing?
    Answer. In September 2016, we reported the following reasons 
contributed to poor performance and low morale in FEMA:
  <bullet> FEMA does not adequately assess Reservist performance 
        following each deployment;
  <bullet> FEMA does not consistently provide all Reservists with job-
        related training opportunities between deployments;
  <bullet> FEMA does not adequately communicate with Reservists;
  <bullet> FEMA does not adequately manage its Reservists' performance 
        and professional development; and
  <bullet> FEMA does not offer its Reservists employment protection 
        (longevity), which limits FEMA's recruitment pool of employees.
    We made 4 recommendations to FEMA in our September 2016 report 
(OIG-16-127-D). Of the 4 recommendations, 1 is closed, 2 remain 
resolved pending corrective actions, and the recommendation to develop 
and implement a workforce readiness strategy remains unresolved.
    Question 1b. Have you looked at or are you reviewing FEMA's current 
initiatives to recruit and retain incident response staff?
    Answer. Our office is currently conducting an on-going audit to 
determine if FEMA's deployment and management of the DHS Surge Capacity 
Force (SCF) is effective in accomplishing its mission during disaster 
operations. The SCF is a voluntary program to supplement FEMA's 
disaster workforce. Following a large-scale disaster, with approval 
from the DHS Secretary, FEMA deploys designated non-FEMA Federal 
employees from every department or agency in the Federal Government to 
support its response and recovery efforts. The SCF volunteers leave 
their regular agency and job to deploy for up to 45 days to a disaster 
location with severe conditions. We estimate the audit to be final in 
spring of 2019.
    We also understand that GAO is currently conducting a broad review 
into FEMA's Workforce Management.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
